APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS,
FEDERAL CIRCUIT
————
2018-1018
————
FORD MOTOR COMPANY,
Plaintiff-Appellee,
v.
UNITED STATES,
Defendant-Appellant.
————
Decided: June 7, 2019
————
Before Dyk, Wallach, and Hughes, Circuit Judges.
Wallach, Circuit Judge.
Appellee Ford Motor Company (“Ford”) sued Appellant United States (“the Government”) in the U.S.
Court of International Trade (“CIT”), challenging U.S.
Customs and Border Protection’s (“Customs”) classification of its model year (“MY”) 2012 Transit Connect
6/71 vehicles under Harmonized Tariff Schedule of
the United States (“HTSUS”)2 Subheading 8704.31.00,
1

Transit Connect 6/7 refers to certain vehicles made by Ford
from the Transit Connect model line with vehicle identification
numbers (“VIN”) containing “either a [number] 6 or 7 in the sixth
digit.” J.A. 5540.
2
“All citations to the HTSUS refer to the 20[11] version, as
determined by the date of importation of the merchandise.”
LeMans Corp. v. United States, 660 F.3d 1311, 1314 n.2 (Fed. Cir.
2011).

2a
which bears a duty rate of 25% ad valorem. Ford and
the Government filed cross-motions for summary judgment, with Ford contending that its subject merchandise is properly classified under HTSUS Subheading
8703.23.00, which bears a lower duty rate of 2.5%
ad valorem. The CIT denied the Government’s CrossMotion and granted Ford’s Cross-Motion, thereby holding that Ford’s proposed classification under HTSUS
Subheading 8703.23.00 is correct. Ford Motor Co. v.
United States, 254 F. Supp. 3d 1297, 1333 (Ct. Int’l
Trade 2017); see J.A. 75–76 (Judgment).
The Government appeals. We have jurisdiction pursuant to 28 U.S.C. § 1295(a)(5) (2012). We reverse.
BACKGROUND
I. The Subject Merchandise
This appeal involves a single entry of subject merchandise, “which entered at the Port of Baltimore on
December 26, 2011.” Ford, 254 F. Supp. 3d at 1303
(citation omitted).3 Ford originally began importing its
line of Transit Connect 6/7s into the United States in
2009. Id. at 1302. Ford also produces a similar vehicle
called the Transit Connect 9. See id. at 1304 n.13.4
Ford based the design of both types of Transit Connect
vehicles on its then-existing European V227 line of
vehicles and imported the Transit Connects from its
factory in Turkey. See id. at 1305. Specifically, “Ford’s
3

Because the parties do not dispute the material facts, we cite
to the CIT’s recitation of the facts for ease of reference. See Ford,
254 F. Supp. 3d at 1302–14.
4

Like the Transit Connect 6/7s, the “Transit Connect 9s contain the number 9 in the sixth digit of the VIN.” Ford, 254 F.
Supp. 3d at 1304 n.13 (citations omitted). The Transit Connect 9s
“are imported with a three-passenger second row seat.” Id. (citation omitted).

3a
European V227 line included” (1) “the double-cab-invan (DCIV)” and (2) “the Cargo Van.” Id. (internal
quotation marks and citations omitted). “Ford based
the subject merchandise on its European V227 DCIV,
not its Cargo Van.” Id. (citations omitted).
Before importation into the United States, Ford
avers that it “modified the European V227 DCIV
to comply with all relevant U.S. safety standards,”
including the Federal Motor Vehicle Safety Standards
(“FMVSS”). Id. (citations omitted). For instance, Ford
redesigned the second row of seats’ underbody support
structure; added side-impact beams and foam blocks
for protection; and changed the vehicle’s lighting,
labels, and turn signals. Id. at 1306. Moreover, “Ford
designed the Transit Connect on the Ford Focus platform, which means that” the two vehicle lines share
similar features, specifically, “[the Transit Connect]
has the same chassis and drivetrain as the Ford Focus
passenger vehicle.” Id. (internal quotation marks,
brackets, and citations omitted). Ford designated its
Transit Connects in the United States as part of the
V227N line, which includes the Transit Connect Van
(i.e., the Transit Connect 6/7) and the Transit Connect
Wagon (i.e., the Transit Connect 9). See id. at 1307 &
n.18. Ford displayed its Transit Connect models at
auto shows and advertised “in magazines and on auto
shopping websites.’’ Id. at 1306 (internal quotation
marks and citations omitted). “Each Transit Connect
was built to order,” with all available customization
options identified in an online brochure. Id. (internal
quotation marks and citations omitted).
At the time of importation, the subject merchandise
had several relevant characteristics. Ford specified the
subject merchandise’s Gross Vehicle Weight Rating
(“GVWR”) as 5,005 pounds. See id. at 1307; see also 49

4a
C.F.R. § 523.2 (2011) (explaining that GVWR refers to
“the value specified by the manufacturer as the loaded
weight of a single vehicle”). The Transit Connect 9, by
contrast, had a GVWR of 4,965 pounds. See Ford, 254
F. Supp. 3d at 1307.5 The Transit Connect 6/7s had a
“four cylinder gasoline engine, . . . a steel unibody
construction[,] . . . front-wheel drive[,] rear passenger
seats with seat anchors[,] . . . underbody bracing[,] . . .
front suspension[,] . . . and over [fifty] inches of space
from floor to ceiling in the rear.” Id. (citations omitted).
The subject merchandise “had swing-out front doors
with windows, second-row sliding doors with windows,”
and “swing-out rear doors, some of which had windows.” Id. (internal quotation marks and citations omitted). “[N]o Transit Connect 6/7s had a panel or barrier
between the first and second row of seats.” Id. (internal
quotation marks and citation omitted). When imported,
the subject merchandise had “second row seats; seat
belts for every seating position; permanent bracing in
the side pillars of the car body,” as well as “child-locks
in the sliding side doors; dome lighting in the front,
middle, and rear of the vehicle; a full length molded
cloth headliner; coat hooks in the second row; and a
map pocket attached to the front driver seat.” Id. (citations omitted). The vehicles also had “front vents and
front speakers,” cup holders in the center and rear
5

Although the CIT recited that Transit Connect 9s “are
assigned a GVWR of 4[,]695 pounds,” Ford, 254 F. Supp. 3d at
1307 (emphasis added) (citing J.A. 5945), this was clearly a typographical error. The CIT cited to the parties’ joint statement of
undisputed facts, which stipulated that those vehicles “are
assigned a GVWR of 4[,]965” pounds. J.A. 5945 (emphasis added).
Indeed, elsewhere, the CIT acknowledged the correct number.
See Ford, 254 F. Supp. 3d at 1326 (summarizing one of Ford’s
arguments and acknowledging “the Transit Connect 9’s 4[,]965
pound GVWR”).

5a
console, and “carpeted footwells in front of the second
row seat.” Id. at 1307, 1308 (internal quotation marks
and citation omitted). However, the vehicles “did not
have rear (behind the front seats) vents, speakers, . . .
handholds”; “side airbags in the area behind the front
seats”; or “a cargo mat.” Id. at 1308 (citations omitted).
“[T]he painted metal floor of the cargo area was left
exposed.” Id. (citations omitted).
Central to the underlying dispute were the Transit
Connect 6/7s’ second row seats. “[T]he second row
seats . . . did not include headrest[s], certain seatback
wires, a tumble lock mechanism, or accompanying
labels, and were wrapped in cost-reduced fabric.” Id.
(internal quotation marks, brackets, and citations
omitted). When Ford began importing MY 2010 Transit Connect 6/7s (as opposed to the MY 2012 versions at
issue here), it used rear seats similar to those that
were eventually used in the MY 2012 Transit Connect
9s. See id. at 1308–09. To reduce costs, Ford created,
“[i]n mid-MY[ ]2010,” its “first cost-reduced seat (‘CRSV1’),” which “resulted in the removal of the head
restraints, torsion bar assembly and mount, tumble
lock mechanism and associated labels, and backrest
reinforcement pad from the MY[ ]2010 Transit
Connect 6/7 rear seat.” Id. at 1310 (citations omitted).
Ford subsequently created its second cost-reduced seat
(“CRSV-2”), which are the seats that were used in the
subject merchandise. See id. at 1311. These seats
“incorporated the following changes from CRSV-1”:
(1) “removal of four of the seven seatback wires,”
(2) “wrapping of the seat in a cost-reduced fireresistant grey woven cover[,] . . . which is not the
same as the fabric used to cover the front seat,”
(3) “replacement of the front leg seat anchor cover,
which was designed to attach to the tumble lock
mechanism, with a cover that did not contain a space

6a
for the tumble lock mechanism,” (4) “removal of the
red indicator flags and housings associated with the
tumble lock mechanism to leave a bare metal lever,”
(5) “removal of the small rubber pad from the rear seat
leg intended to decrease noise and vibration from
around the rear floor latches,” (6) removal of “the fabric
mesh covering the rear seat bottom,” and (7) discontinuation of the application of the “black paint to the
visible, metal portions of the [rear] seat frame.” Id.
(internal quotation marks, brackets, and citations
omitted). Although Ford’s “engineers concluded that
the fabric change and removal of seatback wires did
not affect the CRSV-2’s FMVSS compliance,” “Ford
did not conduct consumer testing or surveys before
implementing the CRSV-2.” Id. (internal quotation
marks and citations omitted).
After importation, Ford made several changes to the
subject merchandise once the merchandise cleared
Customs, but while the imported merchandise “w[as]
still within the confines of the port.” Id. at 1312. For
instance, all Transit Connects underwent processing,
such as “removing . . . a protective covering,” “disengaging Transportation Mode,” and “checking for low fuel.”
Id. (internal quotation marks and citations omitted).
The Transit Connect 6/7s underwent “additional”
processing (“post-importation processing”). Id. Specifically, “the second-row seat[s were] unbolted and
removed, along with the associated second row safety
restraints. A steel panel was then bolted into the
second row footwell to create a flat surface behind the
first rows of seats.” Id. (footnote and citations omitted). “A molded cargo mat was placed over the floor
behind the first row,” “[s]cuff plates were added inside
the second-row doors,” and “[i]n some vehicles the
sliding door windows were replaced with a solid panel.”
Id. (citations omitted).

7a
Therefore, “[a]ll Transit Connects are imported with
second row seats, but the Transit Connect 6/7s are
delivered to the customer as a two seat cargo van.” Id.
at 1307 (citations omitted). “The removed seats were
recycled or otherwise disposed of.” Id. at 1312 n.36 (citation omitted). Following this additional post-importation
processing, the Transit Connect 6/7s maintained the
following features: “underbody second-row seat support; anchors and fittings for the second-row seat[;]
permanent bracing in the side pillars to support the
removed safety restraints; and the beam and foam in
the side sliding doors for rear passenger crash protection.” Id. at 1312 (footnote and citations omitted). However, during the post-importation processing, “[t]he
anchor holes for the second row seat are plugged and
no longer readily accessible.’’ Id. at 1312 n.38.
II. Procedural History
In February 2012, “the Port of Baltimore notified
Ford that [Customs] had initiated an investigation into
Ford . . . importations.” Id. at 1314 (internal quotation
marks and citations omitted). Following the investigation, in January 2013, Customs found that the subject
merchandise was properly classified under HTSUS
Heading 8704, specifically HTSUS Subheading
8704.31.00. Customs Ruling HQ H220856, 2013 WL
1793233, at *11 (Jan. 30 2013). Accordingly, Customs
liquidated the subject merchandise at the 25% duty
rate associated with HTSUS Subheading 8704.31.00.
Ford, 254 F. Supp. 3d at 1303. “Ford timely and
properly protested” this decision. Id. Customs denied
Ford’s protest. Id.
Ford filed a complaint with the CIT, alleging Customs improperly denied its protest. J.A. 98. The CIT
held that the subject merchandise should have been
classified under HTSUS Subheading 8703.23.00. Ford,

8a
254 F. Supp. 3d at 1333. The CIT evaluated the subject
merchandise’s condition at the time of importation, see
id. at 1316–17, and concluded “the Transit Connect
6/7’s structural and auxiliary design features point to
a principal design for the transport of persons,” id.
at 1328. The CIT explained that “because [HTSUS
H]eading 8703 is not controlled by use, and an assessment of intended use is not necessary to distinguish
[HTSUS Heading] 8703 from 8704,” it found “it unnecessary to consider principal or intended use, or the
[relevant use] factors, to define the tariff terms.” Id. at
1332. Furthermore, the CIT rejected the argument
that Ford’s post-importation processing constituted a
disguise or artifice, determining instead that Ford’s
removal of the rear seats “after importation is
immaterial” and that Ford engaged in legitimate tariff
engineering. Id. at 1324 (footnote omitted).
DISCUSSION
I. Standard of Review and Legal Framework
We review the CIT’s decision to grant summary judgment de novo, applying the same standard used by the
CIT to assess Customs’ classification. See Otter Prods.,
LLC v. United States, 834 F.3d 1369, 1374–75 (Fed.
Cir. 2016). “Although we review the decision of the CIT
de novo, we give great weight to the informed opinion
of the CIT and it is nearly always the starting point
of our analysis.’’ Schlumberger Tech. Corp. v. United
States, 845 F.3d 1158, 1162 (Fed. Cir. 2017) (internal
quotation marks, alterations, and citation omitted).
Pursuant to U.S. Court of International Trade Rule
56(a), the CIT “shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.”

9a
“The classification of merchandise involves a twostep inquiry.” ADC Telecomms., Inc. v. United States,
916 F.3d 1013, 1017 (Fed. Cir. 2019). First, we ascertain the meaning of the terms within the relevant
tariff provision, which is a question of law, and, second,
we determine whether the subject merchandise fits
within those terms, which is a question of fact.
See Sigma-Tau HealthSci., Inc. v. United States, 838
F.3d 1272, 1276 (Fed. Cir. 2016). “Where, as here, no
genuine dispute exists as to the nature of the subject
merchandise, the two-step inquiry collapses into a
question of law we review de novo.” ADC, 916 F.3d at
1017 (internal quotation marks and citation omitted).
The HTSUS governs the classification of merchandise imported into the United States. See Wilton Indus.,
Inc. v. United States, 741 F.3d 1263, 1266 (Fed. Cir.
2013). The HTSUS “shall be considered . . . statutory
provisions of law for all purposes.” 19 U.S.C. § 3004(c)(1)
(2012); see Chemtall, Inc. v. United States, 878 F.3d
1012, 1026 (Fed. Cir. 2017) (explaining that “the tenthdigit statistical suffixes . . . are not statutory,” as those
suffixes are not incorporated in the HTSUS’s legal
text). “The HTSUS scheme is organized by headings,
each of which has one or more subheadings; the headings set forth general categories of merchandise, and
the subheadings provide a more particularized segregation of the goods within each category.” Wilton Indus.,
741 F.3d at 1266. “The first four digits of an HTSUS
provision constitute the heading, whereas the remaining digits reflect subheadings.’’ Schlumberger, 845
F.3d at 1163 n.4. “[T]he headings and subheadings . . .
are enumerated in chapters 1 through 99 of the
HTSUS (each of which has its own section and chapter
notes). . . .” R.T. Foods, Inc. v. United States, 757 F.3d
1349, 1353 (Fed. Cir. 2014). The HTSUS “also contains
the ‘General Notes,’ the ‘General Rules of Interpreta-

10a
tion’ (‘GRI’), the ‘Additional [U.S.] Rules of Interpretation’ (‘ARI’), and various appendices for particular categories of goods.’’ Id. (footnote omitted).
The GRI and the ARI govern the classification of
goods within the HTSUS. See Otter Prods., 834 F.3d at
1375. “The GRI apply in numerical order, meaning
that subsequent rules are inapplicable if a preceding
rule provides proper classification.” Schlumberger,
845 F.3d at 1163. GRI 1 provides, in relevant part, that
“classification shall be determined according to the
terms of the headings and any relative section or chapter notes.’’ GRI 1 (emphasis added). “Under GRI 1, [we]
first construe[ ] the language of the heading, and any
section or chapter notes in question, to determine
whether the product at issue is classifiable under the
heading.” Schlumberger, 845 F.3d at 1163 (internal
quotation marks and citation omitted). “[T]he possible
headings are to be evaluated without reference to their
subheadings, which cannot be used to expand the
scope of their respective headings.” R.T. Foods, 757
F.3d at 1353 (citations omitted). “Absent contrary
legislative intent, HTSUS terms are to be construed
according to their common and commercial meanings,
which are presumed to be the same.” Well Luck Co. v.
United States, 887 F.3d 1106, 1111 (Fed. Cir. 2018)
(internal quotation marks and citation omitted). “To
discern the common meaning of a tariff term, we may
consult dictionaries, scientific authorities, and other
reliable information sources.’’ Kahrs Int’l, Inc. v. United
States, 713 F.3d 640, 644 (Fed. Cir. 2013) (citation
omitted). By contrast, the ARI contain, inter alia,
specific rules for interpreting use and textile provisions in the HTSUS. See ARI 1(a)–(d); Schlumberger,
845 F.3d at 1163 n.5 (explaining that the ARI do not
apply to eo nomine provisions). ARI 1(a) provides that,
when a tariff provision is “controlled by use (other

11a
than actual use),” then classification “is to be determined in accordance with the use in the United States
at, or immediately prior to, the date of importation, of
goods of that class or kind to which the imported goods
belong, and the controlling use is the principal use.”
ARI 1(b) governs classification by “actual use,” rather
than principal use.
We may also consider the relevant Explanatory Notes
(“EN”). Fuji Am. Corp. v. United States, 519 F.3d 1355,
1357 (Fed. Cir. 2008). “The [ENs] provide persuasive
guidance and are generally indicative of the proper
interpretation, though they do not constitute binding
authority.” Chemtall, 878 F.3d at 1019 (internal
quotation marks and citation omitted).
Once we determine the appropriate heading, we
apply GRI 6 to determine the appropriate subheading.
See Orlando Food Corp. v. United States, 140 F.3d
1437, 1442 (Fed. Cir. 1998). GRI 6 provides that “the
classification of goods in the subheadings of a heading
shall be determined according to the terms of those
subheadings and any related subheading notes and,
mutatis mutandis, to the above [GRIs], on the understanding that only subheadings at the same level are
comparable.’’
II. The CIT Erred in Granting Summary Judgment
for Ford and Denying Summary Judgment for
the Government
A. HTSUS Heading 8703 Is an Eo Nomine Provision that Inherently Suggests Use
HTSUS Heading 8703 covers “[m]otor cars and other
motor vehicles principally designed for the transport of
persons (other than those of [HTSUS H]eading 8702),
including station wagons and racing cars.” The CIT
found that an examination of the vehicle’s use was not

12a
“necessary or helpful to arriving at the correct classification.” Ford, 254 F. Supp. 3d at 1331. The Government contends the CIT erred by classifying the subject
merchandise under HTSUS Heading 8703, contrary to
Customs’ classification. See Appellant’s Br. 17. The
Government argues Customs correctly determined
that “the overwhelming majority of [the relevant design
features] indicated that the [Transit] Connect 6/7 is
not principally designed for the transport of persons.’’
Id. at 19 (internal quotation marks omitted). According to the Government, it was proper for Customs to
consider, inter alia, factors that are typically used to
evaluate the imported product’s use in the United
States. See id. at 36. We agree, in part, with the
Government, and hold the CIT erred by refusing to
consider intended use as part of its analysis.
“We first must assess whether the subject [h]eading[ ]
constitute[s an] eo nomine or use provision[ ] because
different rules and analysis will apply depending upon
the heading type.” Schlumberger, 845 F.3d at 1164
(first citing Kahrs, 713 F.3d at 645–46 (defining eo
nomine provision); then citing Aromont USA, Inc. v.
United States, 671 F.3d 1310, 1312–16 (Fed. Cir. 2012)
(defining principal use provision)). “[W]e consider a
HTSUS heading or subheading an eo nomine pro
vision when it describes an article by a specific name.”
CamelBak Prods., LLC v. United States, 649 F.3d
1361, 1364 (Fed. Cir. 2011) (citation omitted). “Absent
limitation or contrary legislative intent, an eo nomine
provision includes all forms of the named article, even
improved forms.’’ Id. at 1364–65 (internal quotation
marks, brackets, and citation omitted). Generally, “a
use limitation should not be read into an eo nomine
provision.” Carl Zeiss, Inc. v. United States, 195 F.3d
1375, 1379 (Fed. Cir. 1999). However, doing so may
be appropriate where “the name itself inherently

13a
suggests a type of use.’’ Id. Alternatively, “once tariff
terms have been defined, . . . use of the subject articles
[may] define[ ] an article[’]s[ ] identity when determining whether it fits within the classification’s scope.’’
GRK Can., Ltd. v. United States, 761 F.3d 1354, 1359
(Fed. Cir. 2014).
Although HTSUS Heading 8703 is an eo nomine
provision, the “principally designed for” portion inherently suggests a type of use, i.e., “the transport of
persons.” In Marubeni America Corp. v. United States
(Marubeni II), we considered the proper classification
of Nissan’s Pathfinder vehicle, examining the same
two headings as the present appeal, and affirmed the
CIT’s conclusion that the subject merchandise was
properly classified under HTSUS Heading 8703, as
opposed to HTSUS Heading 8704. See 35 F.3d 530,
532 (Fed. Cir. 1994). In interpreting HTSUS Heading
8703, Marubeni II explained that the relevant dictionary definitions from Webster’s Third New International
Dictionary of the English Language (1986) define
“‘principally’ as ‘in the chief place, chiefly[ ]’ and . . .
‘designed’ as ‘done by design or purposefully opposed
to accidental or inadvertent; intended, planned.’” Id.
at 534. Given these definitions, HTSUS Heading
8703’s purposeful language—that asks whether the
merchandise is chiefly intended for the transportation
of persons—inherently suggests intended use. See id.
We have held in other cases that an eo nomine
provision may require looking to intended use. In
GRK, we considered a tariff heading for ‘‘other wood
screws” and explained that central to the ‘‘common
understanding” of that heading is the ‘‘intended use
of [the] screws” because the tariff provision is not
directed to ‘‘screws made of wood,” ‘‘but rather metal
screws used to fasten wood.” 761 F.3d at 1359.

14a
Similarly, in Len-Ron Manufacturing Co. v. United
States, we considered a heading for ‘‘vanity cases”
and agreed with the CIT that the heading covered
‘‘all forms of the articles,” i.e., that the heading is
eo nomine. 334 F.3d 1304, 1311 (Fed. Cir. 2003).
Nevertheless, we explained that use was a relevant
consideration because ‘‘for a handbag or case to be
classified as a vanity case, containing, carrying, or
organizing cosmetics must be its predominant use,
rather than simply one possible use.” Id. Therefore, we
adopted the CIT’s definition of vanity case as ‘‘a small
handbag or case used to hold cosmetics” and explained
that the at-issue ‘‘cosmetics bags are indisputably
small handbags or cases designed and intended to
hold cosmetics,” such that they were classifiable as
vanity cases. Id. at 1312 (emphasis added) (internal
quotation marks omitted). As in those cases, use is
relevant in construing ‘‘other motor vehicles principally designed for the transport of persons” in HTSUS
Heading 8703 because this language suggests that
classification is necessarily intertwined with whether
an imported vehicle is chiefly intended to be used to
transport persons. Cf. Irwin Indus. Tool Co. v. United
States, 920 F.3d 1356, 1361 (Fed. Cir. 2019) (holding
that ‘‘the terms pliers and wrenches” do not ‘‘inherently suggest . . . use,” where ‘‘the language of the
particular headings . . . do[ ] not imply that use or
design is a defining characteristic” (emphasis added)).
This conclusion follows from our precedent in
Marubeni II, which implicitly recognized that HTSUS
Heading 8703 inherently requires looking to intended
use. There, the court began its consideration of HTSUS
Heading 8703 by conducting what appears to be an
eo nomine analysis, without stating as much. See
Marubeni II, 35 F.3d at 534–35 (construing the
meaning of the heading under the GRIs without

15a
reference to the ARIs). We explained that ‘‘the
statutory language” of HTSUS Heading 8703, which
employs the word principally, ‘‘is clear that a vehicle’s
intended purpose of transporting persons must outweigh an intended purpose of transporting goods”
and that ‘‘[t]o make this determination, . . . both the
structural and auxiliary design features must be considered.” Id. at 535. Then, Marubeni II proceeded by
endorsing the consideration of use. See id. at 536.
Marubeni II expressly approved of the CIT’s reasoning
below, which we acknowledged ‘‘carefully applied the
proper standards” and evaluated not only the structural and auxiliary design features, but also ‘‘the
marketing and engineering design goals (consumer
demands, off the line parts availability, etc.).” Id.
For its part, the CIT’s opinion discussed ‘‘marketing,
as reflective of design intent and execution,” under a
heading titled ‘‘[m]arketing and use indicate the Pathfinder was designed for transport of persons.” Marubeni
Am. Corp. v. United States (Marubeni I), 821 F. Supp.
1521, 1528 (Ct. Int’l Trade 1993). The CIT explained
that the marketing evidence shows ‘‘that cargo capacity was not a major objective of the designer vis-à-vis
the competition, at least as reflected in its polar charts.
Product development documentation and advertising
were consistent. The emphasis was on family use,
loading groceries and sports equipment and ‘go anywhere’ élan.” Id. (citation omitted). The CIT noted
that, although “[t]he marketing and product planning
documents mention cargo capacity[, it] does not appear
to be a high priority.” Id. at 1528 n.13. Given our
endorsement of the CIT’s consideration of marketing
materials that speak to the use of the product, see
Marubeni II, 35 F.3d at 536, we therefore have signaled
that consideration of use is appropriate for HTSUS
Heading 8703, see id.; see also Aromont, 671 F.3d at

16a
1313 (listing appropriate considerations for use provisions, such as “use in the same manner as merchandise which defines the class” and “the manner in which
the merchandise is advertised and displayed”).
Ford’s counterarguments are unavailing. First, Ford
avers Western States Import Co. v. United States supports the conclusion that “intended use” is not relevant
to the HTSUS Heading 8703 analysis. Appellee’s Br.
62 (citing 154 F.3d 1380 (Fed. Cir. 1998)). In Western
States, we affirmed the classification of merchandise
under a subheading for bicycles other than bicycles
“not designed for use with [wide] tires.” 154 F.3d at
1381. The importer disagreed with this classification
and argued Customs should have considered “the
intent of the manufacturer,” id. at 1382, as evidenced
by the fact that “the bicycles were shipped with narrow
tires,” id. at 1383. We rejected this argument because
it “changes the language of the statute, according primacy to the designer’s state of mind and limiting the
examination of the objective physical design features
of a bicycle to a single facet of that design,” i.e., “the
tire with which the bicycle is equipped.” Id. Western
States does not stand for the proposition that a
manufacturer’s design goals cannot be considered as
one of many relevant considerations under the separate HTSUS Heading 8703. Indeed, Marubeni II
specifically allows for consideration of “the reasons
behind [certain] design decisions.” 35 F.3d at 536.
Moreover, although Western States recognized that
HTSUS Heading 8703’s principally designed language
is “[t]he closest corollary” to the provision at issue there,
the panel went to great lengths to distinguish the
heading at issue from HTSUS Heading 8703. 154 F.3d
at 1382; see id. (“The specific language at issue here
requires [the importer] to establish affirmatively that
its product is not designed for a specific use, rather

17a
than ‘specially’ or ‘principally’ designed for a specific
purpose. The word ‘not’. . . limits the tariff provision to
bikes with design features that make them not suitable for or capable of use with wider tires. The use of
the word ‘not’ does not contemplate a balancing of
design features to determine what is principal, as in
Marubeni[ II].”). The panel concluded that, “[e]ven if
the bicycles at issue were designed with narrow tires
in mind, or ‘principally designed’ with narrow tires in
mind, they were not ‘not designed for use with’ wider
tires.” Id. at 1383 (footnote omitted). Here, the principally designed language necessitates a broader inquiry,
as described in Marubeni II, involving the “balancing
of [structural and auxiliary] design features,” id. at
1382, and the “reasons behind [those] design decisions,”
35 F.3d at 536.
Second, Ford contends Customs improperly considered post-importation processing rather than limiting
its evaluation to the subject merchandise’s “condition
as imported.” Appellee’s Br. 38. “The rule is well established that in order to produce uniformity in the
imposition of duties, the dutiable classification of articles imported must be ascertained by an examination
of the imported article itself, in the condition in which
it is imported.” United States v. Citroen, 223 U.S. 407,
414–15, 32 S.Ct. 259, 56 L.Ed. 486 (1912) (internal
quotation marks and citations omitted). Our holding
today does not controvert this rule, as this rule does
not stand for the proposition that pre-importation
activities can never be relevant. Consideration of these
factors flows from the plain meaning of the term
“principally designed,” which means chiefly “done by
design or purposefully. . . . ; intended[ or] planned.”
Marubeni II, 35 F.3d at 534 (emphases added) (internal quotation marks and citation omitted). Indeed,
Ford apparently recognizes that its argument only pre-

18a
cludes consideration of pre-importation design goals if
we construe HTSUS Heading 8703 as not allowing
for consideration of use. Oral Arg. at 28:03–30,
http://oralarguments.cafc.uscourts.gov/default.aspx?fl
=2018-10183132019.mp3 (Q: “Is the condition at
importation confined to just the physical characteristics or do you look to the structure of the sale and
marketing and all of that . . . not on a post-importation
look, but on a pre-importation look?” A: “I think that
depends on what kind of heading this is. This is not a
use provision. This is an eo nomine provision. . . .”).
Because the “principally designed for” language of
HTSUS Heading 8703 inherently requires considerations of intended use, consideration of pre-importation
design goals is relevant here. Therefore, we consider
pre-importation design goals below, along with the
subject merchandise’s condition as imported.
We conclude this appeal presents one of the very
limited circumstances where the relevant heading,
HTSUS Heading 8703, is an eo nomine provision for
which consideration of use is appropriate because
HTSUS Heading 8703 inherently suggests looking to
intended use. See Kahrs, 713 F.3d at 646 (“Generally,
we should not read a use limitation into an eo nomine
provision unless the name itself inherently suggests a
type of use.’’). The CIT erred by not considering use.
See Ford, 254 F. Supp. 3d at 1332 (finding “it unnecessary to consider principal or intended use, or the
[attendant] factors”). Nevertheless, because the parties
do not allege that a “genuine dispute exists as to the
nature of the subject merchandise, the two-step inquiry
collapses into a question of law,” and we proceed by
conducting a proper analysis of the relevant headings.
ADC, 916 F.3d at 1017 (internal quotation marks and
citation omitted). See generally Appellant’s Br.; Appellee’s Br.

19a
B. The Subject Merchandise Does Not Fall Within
HTSUS Heading 8703
In classifying the subject merchandise under HTSUS
Heading 8703, the CIT held the subject merchandise’s
“structural and auxiliary design features point to a
principal design for the transport of persons.” Ford,
254 F. Supp. 3d at 1328. For structural design features, the CIT found support for this conclusion in “the
Transit Connect 6/7’s structural similarity to the Transit
Connect 9 passenger wagon and its consistency with
relevant parts of [the] [ENs].” Id. at 1326. For auxiliary design features, the CIT determined “the CRSV-2
is still a seat, albeit a cheaper and, perhaps, less attractive one,” and the CIT pointed to “additional auxiliary
design features,” such as “carpeted footwells” and
“child-locks in the sliding doors” to support its conclusion. Id. at 1328.
The Government argues that the CIT erred in classifying the subject merchandise under HTSUS Heading
8703 because “the structural and auxiliary design
features of the [Transit] Connect 6/7—viewed as a
whole—failed to demonstrate that the vehicle was
‘principally designed’ for passengers.” Appellant’s Br.
37. The Government also avers that “Ford marketed
the [Transit] Connect 6/7 exclusively as a cargo van;
consumers and industry publications recognized the
[Transit] Connect 6/7 exclusively as a cargo van; purchasers used the [Transit] Connect 6/7 exclusively as
a cargo van; and Ford itself described the [Transit]
Connect 6/7 exclusively as a cargo van.” Id. at 38–39.
We agree with the Government that the CIT erred in
classifying the subject merchandise under HTSUS
Heading 8703.
The relevant inquiry for classification under HTSUS
Heading 8703 is “that a vehicle’s intended purpose of

20a
transporting persons must outweigh an intended purpose of transporting goods” and that, “[t]o make this
determination, . . . both the structural and auxiliary
design features must be considered.’’ Marubeni II, 35
F.3d at 535. Structural design features include “basic
body, chassis, . . . suspension design, [and] style and
structure of the body control access to rear.” Id. at 534
(brackets and ellipsis omitted). Auxiliary design
features include “vehicle height,” certain features of
the “rear seats,” “foot-wells,” “seat belts,” and other
passenger amenities. Id. at 537. In addition, certain
use considerations may be relevant, such as “the
marketing and engineering design goals (consumer
demands, off the line parts availability, etc.).” Id. at
536.
While not binding, the ENs help guide our understanding of the heading. See Chemtall, 878 F.3d at
1019. The ENs state that the heading covers “[f]ourwheeled motor vehicles with tube chassis, having a
motor-car type steering system (e.g., a steering system
based on the Ackerman principle).” EN(6), Heading
8703, HTSUS. The ENs identify “certain features
which indicate that the vehicles are principally
designed for the transport of persons rather than for
the transport of goods,” such as a GVWR “rating of less
than [five] ton[s],” and “a single enclosed interior space
comprising an area for the driver and passengers and
another area that may be used for the transport of
both persons and goods.” EN, Heading 8703, HTSUS.
The ENs also list certain features that “are indicative
of the design characteristics” for HTSUS Heading
8703, such as the (1) “[p]resence of permanent seats
with safety equipment (e.g., safety seat belts or anchor
points and fittings for installing safety seat belts) for
each person or the presence of permanent anchor
points and fittings for installing seats and safety equip-

21a
ment in the rear area,” (2) “[p]resence of rear windows
along the two side panels,” (3) “[p]resence of sliding,
swing-out or lift-up door or doors, with windows, on the
side panels or in the rear,” (4) “[a]bsence of a permanent
panel or barrier between the area for the driver and
front passengers and the rear area that may be used
for the transport of both persons and goods,” and
(5) “[p]resence of comfort features and interior finish
and fittings throughout the vehicle interior that are
associated with the passenger areas of vehicles (e.g.,
floor carpeting, ventilation, interior lighting, ashtrays).”
EN, Heading 8703, HTSUS.
On balance, the structural design features, auxiliary
design features, and inherent use considerations establish that the subject merchandise is not classifiable
under HTSUS Heading 8703. The subject merchandise is not principally designed for the transport of
persons. We discuss each of these considerations in
turn.
1. Structural Design Features
The structural design features favor a finding that
the subject merchandise is designed for transport of
passengers. The Transit Connect 6/7s “shared the
same chassis and drivetrain with the Ford Focus passenger vehicle.’’ Def.’s Resps. to Pl.’s Statement of
Material Facts ¶ 4, Ford Motor Co. v. United States,
No. 1:13 cv-00291-MAB (Ct. Int’l Trade Mar. 4, 2016),
ECF No. 91-13 (citations omitted). Similarly, the
imported Transit Connect 6/7s share the following
structural features with Transit Connect 9s: “a
Duratec 2.0[ liter], four cylinder gasoline engine”; “a
steel unibody construction”; “front-wheel drive”; “Macpherson strut front suspension”; “rear passenger seats

22a
with seat anchors” ; “underbody bracing”; “permanent
bracing in the side pillars of the car body”; “no . . .
panel or barrier between the first and second row of
seats”; and “ground clearance of 8.2 inches.” J.A.
4845–50. While not dispositive, see Marubeni II, 35
F.3d at 536 (“The fact that a vehicle is derived in-part
from a truck or from a sedan is not, without more,
determinative of its intended principal design objectives which were passenger transport and off-road
capability.”), these structural features demonstrate
similarities between the subject merchandise and
Ford’s Transit Connect 9s, which are imported as fivepassenger vehicles and do not undergo post-importation processing to convert the passenger vehicles into
cargo vans, see J.A. 5948. Notably, the evidence
indicates that the Duratec “2.0 liter engine” and frontwheel drive are “more commonly used on passenger
vehicles,” a fact which indicates the significance of
these features for classification as a passenger vehicle.
J.A. 4846.
6

In addition, all Transit Connects had “swing-out
front doors with windows, second-row sliding side
doors with windows” that met federal “safety standards for side impact,” and “swing-out rear doors, some
of which had windows.” J.A. 4849. The ENs, which list
“[p]resence of rear windows along the two side panels”
and “[p]resence of sliding, swing-out or lift-up door or
doors, with windows, on the side panels or in the rear”
6

Although the Transit Connect 6/7s have rear seats when
imported, the discussion below regarding auxiliary design features demonstrates that the subject merchandise is not principally designed to use the rear area for the transport of persons.
See infra Section II.B.2. That discussion, therefore, bears on our
analysis of the structural design features to the extent it relates
to the presence of the rear seats.

23a
as indicative of design characteristics, demonstrate
that these features of the subject merchandise are
consistent with a passenger vehicle. EN, Heading
8703, HTSUS. However, a Ford brochure indicates
the rear doors are designed for cargo, describing the
“[r]ear [c]argo [d]oors” as capable of “be[ing] opened
wide, up to 180 degrees, for easy access to the expansive cargo area to make loading easier” and stating the
“[w]ide rear opening makes rear access and loading
or unloading easy.” J.A. 2825 (emphasis added); see
J.A. 2826 (highlighting the “[r]ear cargo door opening
width . . . [and] height” as “[k]ey [i]nterior [c]argo
[d]imensions,” along with “[c]argo length” and “[l]ow
load floor height . . . [that] makes loading and unloading convenient”). Moreover, the two types of Transit
Connects differed in that Ford assigned the Transit
Connect 6/7s a higher “GVWR of 5[,]005 [pounds],”
while the Transit Connect 9s “are assigned a GVWR of
4[,]965” pounds, indicating the subject merchandise is
designed to bear more weight. J.A. 5945; see 49 C.F.R.
§ 523.2. This factor, however, does not weigh heavily
against classification under HTSUS Heading 8703
because the ENs explain a GVWR “rating of less than
[five] ton[s],” which describes both types of Transit
Connects, “indicate[s] that the vehicles are principally
designed for the transport of persons.” EN, Heading
8703, HTSUS. Therefore, many of the structural
design features favor the CIT’s classification under
HTSUS Heading 8703.
2. Auxiliary Design Features
A review of the auxiliary design features reveals the
Transit Connect 6/7s were not principally designed for
the transport of passengers. Admittedly, the subject
merchandise has some features indicative of passenger vehicles, including “seat belts for every seating

24a
position,” J.A. 4848; “child-lock in the sliding side doors,”
J.A. 4849; “footwells in front of a second row seat,” J.A.
4850, “head room of more than [fifty] inches in the
rear,” J.A. 4851; “dome lighting in the front, middle,
and rear of the vehicle,” J.A. 4851; and “coat hooks in
the second row,” J.A. 4852; see EN, Heading 8703,
HTSUS (identifying the presence of “comfort features,”
such as “interior lighting” as indicative of a passenger
vehicle). However, the auxiliary design features of the
rear seating area, when viewed in the aggregate,
demonstrate the Transit Connect 6/7s were not principally designed for the transportation of passengers,
with the CRSV-2 designed to be temporary and
removed during post-importation processing.
Specifically, the Transit Connect 6/7’s second row
seats “did not have headrests, certain comfort wires,
or a tumble lock mechanism.” J.A. 4847; see J.A. 5936
(explaining that the “seat back wires provide[ ]”, inter
alia, “lumbar support” and “passenger comfort”). The
second row seats were “covered in a reduced cost fabric”
that was “different fabric [from] the” fabric used in the
Transit Connect 9s. J.A. 4847. The Transit Connect
6/7s did not have (1) “a cargo mat,” J.A. 5553 (citations
omitted); (2) “side airbags behind the front seats,” Pl.’s
Resp. to Def.’s Statement of Material Facts ¶ 18, Ford
Motor Co. v. United States, No. 1:13-cv-00291-MAB
(Ct. Int’l Trade Mar. 7, 2016), ECF No. 99-5 (citation
omitted); or (3) speakers, hand-holds, or vents behind
the front seats, id. ¶¶ 19–21 (citations omitted); see
EN, Heading 8703, HTSUS (identifying presence of
“ventilation” as a “comfort feature[ ]” for passengers,
but rear ventilation is lacking in the subject merchandise). Ford “left the painted metal floor of the cargo
area exposed,” which weighs against classification in
HTSUS Heading 8703. J.A. 5553; see EN, Heading
8703, HTSUS (stating the presence of “interior

25a
finish[ings]” is indicative of a passenger vehicle).
There is a fundamental reason behind these design
decisions. See Marubeni II, 35 F.3d at 536 (endorsing
the CIT’s consideration of “the reasons behind
[certain] design decisions,” as a relevant consideration
(emphasis added)). Ford employed the CRSV-2 to
reduce costs, while facilitating post-importation
processing of converting the Transit Connect 6/7s into
cargo vans by using sham rear seats that would be
stripped from the vehicles. See J.A. 5941–42
(explaining that the changes to the second row seats
were a “cost reduction item,” and “these seats will be
scrapped in [the] U[nited] S[tates and] will not be used
anytime”).7 In fact, the Transit Connects 6/7s had a
different sixth-digit in their VIN from the Transit
Connect 9s to indicate which vehicles should undergo
post-importation processing and removal of the rear
seat. See J.A. 5540 (“Ford never sold any Transit
Connect vehicles with a 6 or 7 in the sixth digit of the
VIN with a second row of seats or seatbelts.” (citation
omitted)).
Even if the CIT is correct that the Transit Connect
6/7s’ rear seat is capable of functioning as passenger
seats in the condition as imported, see Ford, 254 F.
Supp. 3d at 1327–28, the proper inquiry is what the
auxiliary design features tell us about the “intended
purpose” of the vehicle, Marubeni II, 35 F.3d at 535;
7

Because Ford made the subject merchandise to order, it
knew that none of the CRSV-2s in the Transit Connect 6/7s would
actually be used. See J.A. 4844 (acknowledging that all Transit
Connects are made to order), 5554 (“Prior to the merchandise at
issue being ordered or manufactured, Ford had entered into a
contract with its port processor to remove and discard 100 percent
of the second row seats, seat belts and unordered windows from
the merchandise at issue, and to cover the footwells and install a
cargo mat over the exposed metal floor.”).

26a
see Heading 8703, HTSUS (including “motor vehicles
principally designed for the transport of persons”
(emphasis added)). Although the EN to HTSUS Heading 8703 recognizes that indicative of passenger vehicles
is the “[p]resence of permanent seats with safety equipment . . . or the presence of permanent anchor points
and fittings for installing seats and safety equipment
in the rear area,” the CRSV-2 is not permanent. The
seat and the attendant seatbelts are designed to be
removed.8 Therefore, as Customs recognized, Ford’s
pre-importation design goals were that the subject
merchandise could be constructed in such a way that
“only minor interior changes were necessary to meet
the design criteria of transporting cargo.’’ HQ H220856,
2013 WL 1793233, at *5; see id. (stating it took “less
than a minute” to remove the CRSV-2 and “under [five]
minutes” to add “rear flooring to cover the exposed
anchor points”). Indeed, “Ford did not [even] conduct
consumer testing or surveys prior to using the [CRSV2].” J.A. 5944.9 The CIT erred in its evaluation of these
auxiliary design features, which compel the conclusion
that the subject merchandise is designed to transport
cargo.
3. Relevant Use Considerations

8

The record demonstrates the subject merchandise “was
stripped of its second row seats[ and] second row seat belts,” J.A.
5554, and “[t]he anchor holes for the second row seat are” designed to be “plugged and no longer readily accessible after postimportation processing,” J.A. 5948 (internal quotation marks and
citation omitted).
9

Ford “considered affixing the windows to the sliding glass
doors of certain Transit Connect vehicles with tape to increase
the ease of removal by the port processers,” but ultimately did not
adopt this feature. J.A. 5553 (emphasis added) (citation omitted).

27a
The relevant use considerations strongly disfavor
classification as a vehicle principally designed for the
transport of passengers due to evidence of Ford’s postimportation processing and its effect on the intended
use of the Transit Connect 6/7s. While we conclude
that HTSUS Heading 8703 is an eo nomine provision,
not a principal use provision, the criteria for determining principal use are also relevant here. When evaluating principal use, a court makes “a determination as
to the group of goods that are commercially fungible
with the imported goods” BenQ Am. Corp. v. United
States, 646 F.3d 1371, 1380 (Fed. Cir. 2011) (internal
quotation marks and citation omitted). To make this
determination, a court may look to the factors outlined
in United States v. Carborundum Co. (“the Carborundum factors”). Id.; see Carborundum, 536 F.2d 373,
377 (CCPA 1976). Particularly relevant here are the
following Carborundum factors: “the general physical
characteristics of the merchandise,” “use in the same
manner as merchandise which defines the class,” “the
expectation of the ultimate purchasers,” and “the environment of the sale, such as accompanying accessories
and the manner in which the merchandise is advertised and displayed.” Aromont, 671 F.3d at 1313.10
Regarding general physical characteristics, we explained above that, whereas the structural design
features align with a passenger vehicle, the auxiliary
design features support the conclusion that the subject
merchandise is not designed for passengers. See supra
Section II.B.1–2.
10

The other Carborundum factors are: “the economic practicality of so using the import,” “the channels of trade in which the
merchandise moves,” and “the recognition in the trade of this
use.” Aromont, 671 F.3d at 1313 (citation omitted). Having considered the record evidence as to these other factors, we find
nothing that alters our conclusion as to the use analysis.

28a
Regarding manner of use and consumer expectations, the subject merchandise was made to order and,
because the post-importation processing occurred immediately after entry, it “was delivered to customers as
two-seat cargo vans,” without rear seats, seatbelts,
unordered windows, and second row footwells. J.A.
5555; see J.A. 5548, 5554. Ford’s market research
showed that the “Transit Connect has little appeal as
a personal use vehicle—its industrial design and austere interior are keys to rejection. Nevertheless, it
continues to resonate as a viable commercial vehicle,”
to be used for, inter alia, “quick deliveries, pickups,
and service calls.” J.A. 4751. In Carborundum, our
predecessor court recognized that imports may be
“specially processed to provide the import with a
utility different from the class,” 536 F.2d at 377; see
Aromont, 671 F.3d at 1313 (“[A]ctual use of the
particular imported goods is evidence of the principal
use of the merchandise involved.”), which is the case
here because the Transit Connect 6/7s undergo postimportation processing and are not utilized like passenger vehicles, see J.A. 5554–55; see also HQ H220856,
2013 WL 1793233, at *6 (“The Ford website . . . features
the Transit Connect [6/7]s in use as cargo/delivery
vehicles by businesses such as the Maid Group, Danny
Armand’s Market[,] and Boo Boo Busters . . . .”
(emphasis added) (internal quotation marks omitted)).
Regarding advertising, Ford’s brochures market the
Transit Connect 6/7s as a cargo van, but list the
Transit Connect 9s as passenger vehicles. See J.A.
2798 (listing the Transit Connect 6/7s (i.e., the Van
model) next to the Transit Connect 9s (i.e., the Wagon
model), and advertise that the Transit Connect 6/7s do
not contain passenger space in the second row but
have cargo capacity of “129.6” cubic feet “[b]ehind [the]
first-row seat,” whereas the Transit Connect 9s have

29a
“67.1” cubic feet of passenger space in the second row
but no cargo space behind “[b]ehind [the] first-row
seat”), 2816 (highlighting that all Transit Connects
have “[s]erious payload and GVWR capacity”), 2818
(advertising only “driver and front passenger” seats in
the Transit Connect 6/7s), 2820 (providing “optional
equipment” and stating “premium carpeted floor mats”
for “rear passenger area” are “not available” as an
option for the Transit Connect 6/7s, but are “optional”
in the Transit Connect 9s (capitalization modified)),
2824 (marketing that Transit Connect 6/7s “provide
up to 129.6 cubic feet of maximum cargo capacity”
(emphasis added)). The Transit Connect 6/7s’ use
weighs heavily against classification under HTSUS
Heading 8703. Accordingly, the Carborundum factors
support the conclusion that the subject merchandise is
not classifiable under HTSUS Heading 8703.11
C. The Subject Merchandise Is Properly Classified Under HTSUS Heading 8704
In evaluating the competing headings, the CIT held,
“having found that the subject merchandise is classifiable under [HTSUS H]eading 8703, [it] need not determine whether the subject merchandise is also classifiable under [HTSUS H]eading 8704” because HTSUS
Heading 8703 is more specific. Ford, 254 F. Supp. 3d
at 1332 n.64; see id. at 1316. The CIT, however, recog11

The Government avers that the CIT erred in classifying
Ford’s subject merchandise under HTSUS Heading 8703 because
Ford’s installation of the CRSV-2 seats constituted “a disguise or
artifice.” Appellant’s Br. 26 (internal quotation marks omitted).
Because we conclude that the CIT erred in classifying the subject
merchandise under HTSUS Heading 8703 by applying an
improper legal analysis, we need not address the Government’s
alternative theory. See NTN Bearing Corp. v. United States,
74 F.3d 1204, 1209 n.4 (Fed. Cir. 1995) (declining to address an
alternative argument).

30a
nized that, “if the Transit Connect 6/7 is not classifiable under [HTSUS H]eading 8703, it falls within
[HTSUS H]eading 8704.” Id. (footnote omitted). The
Government argues that the Transit “Connect 6/7
should be classified as a cargo vehicle under [HTSUS]
Heading 8704.” Appellant’s Br. 35 (capitalization modified). We agree with the Government.
We begin by determining whether HTSUS Heading
8704 is an “eo nomine or use provision[ ].” Schlumberger,
845 F.3d at 1164 (citations omitted). Principal use
provisions are governed by ARI 1(a), and a principal
use “analysis involves determining the use which
exceeds any other single use of the merchandise in the
United States.’’ R.T. Foods, 757 F.3d at 1355 (internal
quotation marks and citation omitted). HTSUS Heading 8704, which covers “[m]otor vehicles for the transport
of goods,” HTSUS Heading 8704 (emphasis added), is
a principal use provision because the heading identifies the chief use of the covered merchandise as of a
kind used to transport goods, cf. Aromont, 671 F.3d at
1312 (finding “preparations there for” is a “principal
use provision” because it identified preparations primarily used for soups and broths); BenQ, 646 F.3d at
1374 (recognizing that a principal use analysis governs,
where a chapter note clarified that a heading covered
“unit . . . of a kind solely or principally used in an automatic data processing system”).
As discussed above, the balance of the Carborundum
factors demonstrate that the made-to-order Transit
Connect 6/7s are principally (if not exclusively) used
for the transport of goods, rather than passengers. See
supra Section II.B.3. The design features demonstrate
the subject merchandise is “tailored to meet the specific
needs of” consumers seeking to transport goods. United
States v. Border Brokerage Co., 706 F.2d 1579, 1582

31a
(Fed. Cir. 1983). Thus, classification under HTSUS
Heading 8704 is appropriate.
D. The Correct Subheading for the Subject
Merchandise Is HTSUS Subheading
8704.31.00
Having determined that the subject merchandise is
properly classified under HTSUS Heading 8704, we
now turn to GRI 6, which governs classification at the
subheading level. See Orlando Food, 140 F.3d at 1442.
At the sixth-digit subheading level, the subject merchandise is not described by HTSUS Subheading
8704.10, which provides “[d]umpers designed for offhighway use,” as there is no evidence that Transit
Connect 6/7s are designed for transporting excavated
materials. See EN, Heading 8704, HTSUS (explaining
that dumpers are “sturdily built vehicles with a tipping or bottom opening body, designed for the transport
of excavated or other materials”). HTSUS Heading
8704 is then divided into three categories: (1) HTSUS
Subheadings 8704.21, 8704.22, and 8704.23, which
cover “[o]ther [than dumpers designed for off-highway
use], with compression-ignition internal combustion
piston engine (diesel or semi-diesel),” (2) HTSUS Subheadings 8704.31 and 8704.32, which cover “[o]ther
[than dumpers designed for off-highway use], with
spark-ignition internal combustion piston engine,”
and (3) HTSUS Subheading 8704.90, which covers
“[o]ther.” See Rollerblade, Inc. v. United States, 282
F.3d 1349, 1354 (Fed. Cir. 2002) (holding that, where
merchandise is properly classified under a particular
heading, but does not fall within a specific subheading,
it is properly classified under the relevant heading’s
“basket” or “catch-all” provision). Because the subject
merchandise has “a spark-ignition internal combustion reciprocating piston engine,” J.A. 4845, it is cov-

32a
ered by the internal combustion piston engine description that applies to both HTSUS Subheadings 8704.31
and 8704.32. HTSUS Subheading 8704.31 covers merchandise with a “[GVWR] not exceeding [five] metric
tons,” while HTSUS Subheading 8704.32 covers merchandise with a “[GVWR] exceeding [five] metric tons.”
The subject merchandise has a GVWR of 5,005 pounds,
J.A. 5945, which is less than five metric tons, see J.A.
1308 (stating, in a Customs opinion, that a GVWR of
5,005 pounds “converts to 2.27 metric tons”). Therefore, the subject merchandise falls under HTSUS Subheading 8704.31, and, because there is only one eighthdigit level designation under this subheading, we hold
the subject merchandise is properly classified under
HTSUS Subheading 8704.31.00.
CONCLUSION
We have considered Ford’s remaining arguments
and find them unpersuasive.12 Accordingly, the Judgment of the U.S. Court of International Trade is
REVERSED.
12

Inter alia, Ford argues in a footnote that “[t]he CIT did not
reach Ford’s alternative arguments that classification under
[HTSUS Heading] 8704 is contrary to Customs’ prior treatment
and established and uniform practice. If this [c]ourt does not
affirm, it should give the CIT an opportunity to address those
arguments in the first instance.” Appellee’s Br. 72 n.8 (citing
Ford, 254 F. Supp. 3d at 1333 n.65). “Arguments raised only in
footnotes . . . are waived.” Otsuka Pharm. Co. v. Sandoz, Inc., 678
F.3d 1280, 1294 (Fed. Cir. 2012); cf. Nalco Co. v. Chem-Mod, LLC,
883 F.3d 1337, 1355 (Fed. Cir. 2018). We decline to exercise our
discretion to consider Ford’s argument here, where it fails to cite
any governing law or develop what facts demonstrate that
Customs had an “established and uniform practice.” Appellee’s
Br. 72 n.8; see Mirror Worlds, LLC v. Apple Inc., 692 F.3d 1351,
1358 (Fed. Cir. 2012) (finding “a passing reference in a footnote”
was insufficient to “preserve the issue for appeal”).

33a
APPENDIX B
UNITED STATES COURT OF
INTERNATIONAL TRADE
————
Slip Op. 17-102
Court No. 13-00291
————
FORD MOTOR CO.,
Plaintiff,
v.
UNITED STATES,
Defendant.
————
August 9, 2017
————
OPINION AND ORDER
Barnett, Judge:
Before the court in this classification case are crossmotions for summary judgment. Confidential Pl.’s
Mot. for Summ. J. and Confidential Mem. of P. & A. in
Supp. of Pl.’s Mot. for Summ. J. (“Pl.’s MSJ”), ECF No.
96; Def.’s Mot. for Summ. J. and Def.’s Mem. of Law in
Opp’n to Pl.’s Mot. for Summ. J. and in Supp. of Def.’s
Cross–Mot. for Summ. J. (“Def.’s XMSJ”), ECF No. 91–
1.1 Plaintiff Ford Motor Company (“Plaintiff’ or “Ford”)
1

The ECF numbers for the briefs are not in sequential order
because amended and corrected versions were filed. The court
references the confidential versions of Parties’ filings, if applicable, throughout this opinion.

34a
contests the denial of protest number 1303–13–100060
challenging U.S. Customs and Border Protection’s
(“Customs” or “CBP”) liquidation of the subject imports,
Model Year (“MY”) 2012 (“MY2012”) Ford Transit
Connect vehicles with vehicle identification numbers
(“VINs”) containing either a number 6 or 7 in the sixth
digit (hereinafter “Transit Connect 6/7”), under subheading 8704.31.00 of the Harmonized Tariff Schedule
of the United States (“HTSUS”), as “motor vehicles for
the transport of goods.” Compl. ¶¶ 7, 10–11, 25, ECF
No. 6 (alteration omitted); Pl.’s MSJ at 3; Def.’s XMSJ
at 5. There is only one entry at issue, Entry Number
300–8620018–3, which entered at the Port of
Baltimore on December 26, 2011 and which Customs
liquidated on May 3, 2013. Summons at 1, ECF No. 1.2
The court previously denied the pending motions
due to the presence of genuine issues of material fact
regarding the characteristics of the Transit Connect
6/7’s cost-reduced rear seat. See Ford Motor Co. v.
United States, 40 CIT ——, 181 F.Supp.3d 1308
(2016). Thereafter, Parties filed a Joint Supplemental
Rule 56.3 Statement of Undisputed Material Facts
2

Plaintiff contends that “[t]he MY2012 vehicles in the subject
entry are similar in all material respects to MY2010–MY2013
Transit Connects, all of which CBP has liquidated consistent with
the decision challenged in this case.” Pl.’s MSJ at 3 n.1. The case
before the court, however, is limited to MY2012 Transit Connect
6/7s and the Court will confine its ruling to the vehicles in
the covered entry. Digidesign, Inc. v. United States, 39 CIT ——,
——, 44 F.Supp.3d 1366, 1371 (2015) (“the identification of
specific entries in a plaintiff’s complaint in part defines the
boundaries of the court’s subject-matter jurisdiction in a given
action”); Am. Fiber & Finishing, Inc. v. United States, 39
CIT ——, ——, 121 F.Supp.3d 1273, 1287 n.47 (2015) (the
court lacks jurisdiction when the entry is neither listed on the
summons nor a part of the underlying protest).

35a
(“Joint Supplement”), see Confidential Joint Rule 56.3
Suppl. Statement of Undisputed Material Facts Filed
in Conjunction with Pl.’s and Def.’s Mots. For Summ.
J. (“Joint Suppl.”), ECF No. 132,3 and asked the court
to reconsider the Parties’ cross-motions in light of the
supplemental facts, see Docket Entry, ECF No. 138.
Cf. USCIT Rule 54(b).4 The court agreed to reconsider
its prior ruling based upon the additional facts and,
upon that reconsideration, the court finds that Customs’
ruling lacks persuasive force. In order to avoid any
confusion as between the prior opinion and this opinion,
and because this opinion restates any relevant portions of the prior opinion, the court vacates its prior
opinion and order, grants Plaintiff’s motion for summary judgment, and denies Defendant’s cross-motion
for summary judgment.
BACKGROUND
I. Overview
In the 1960s, the United States and Europe were
involved in a “trade war.” Def.’s XMSJ at 2 n.1 (citing
Def.’s Ex. 5). Europe increased the duty on chicken
imported from the United States, and the United
3

In addition to undisputed material facts concerning the costreduced car seat, the Joint Suppl. contained two sections of
disputed facts. See Joint Suppl. at 17 (Ford’s facts disputed by
CBP); id. at 23 (CBP’s facts disputed by Ford).
4

Pursuant to Rule 54(b), “any order or other decision . . . that
adjudicates fewer than all the claims . . . does not end the action
as to any of the claims . . . and may be revised at any time before
the entry of a judgment adjudicating all the claims . . . .” USCIT
Rule 54(b); see also Beijing Tianhai Industry Co., Ltd. v. United
States, 41 CIT ——, ——, 234 F.Supp.3d 1322, 1328 (2017) (“This
[c]ourt has held that it may reconsider a prior, non-final decision
pursuant to its plenary power, which is recognized by Rule
54(b).”) (citations omitted).

36a
States responded by placing a 25% tariff on trucks
imported from Europe. Id. This retaliatory duty on
trucks, colloquially referred to as the “chicken tax,”
was still in place when Ford began importing the
subject merchandise into the United States from its
factory in Turkey in 2009. Id.; Confidential Def.’s
Statement of Material Facts as to Which There Are No
Genuine Issues to Be Tried (“Def.’s Facts”) ¶ 13, ECF
No. 92–7; Confidential Pl. Ford Motor Co.’s Resp. to
Def.’s R. 56.3 Statement of Material Facts (“Pl.’s Resp.
to Def.’s Facts”) ¶ 13, ECF No. 97–12. By contrast, the
duty on imports of passenger vehicles is 2.5%. HTSUS
Heading 8703; see also Summons at 2.
As detailed below,5 Ford manufactures the Transit
Connect 6/7s in Turkey and imports them into the
United States. Although these vehicles are made to
order and are ordered as cargo vans, Ford manufactures and imports them with a second row seat,
declaring the vehicles as passenger vehicles subject
to subheading 8703.23.00 and a 2.5% duty.6 After
clearing customs but before leaving the port, Ford (via
a subcontractor) removes the second row seat and
makes other changes, delivering the vehicle as a cargo
van. Defendant United States (“Defendant” or “United
States”) determined that the inclusion of the second
row seat is an improper artifice or disguise masking
the true nature of the vehicle at importation and that
such vehicle is properly classified under subheading

5
6

See infra Section III.B.

Subheading 8703.23.00, HTSUS, covers “[m]otor cars and
other motor vehicles principally designed for the transport of
persons.”

37a
8704.31.00 and subject to a 25% duty.7 Ford contends
that this is legitimate tariff engineering.8
II. Procedural History
The sole entry at issue is Entry Number 300–
8620018–3, which entered at the Port of Baltimore on
December 26, 2011 and Customs liquidated pursuant
to subheading 8704.31.00, with a 25% duty rate on
May 3, 2013. Summons at 1. Ford timely and properly
protested, claiming that the subject merchandise
should have been liquidated pursuant to subheading
8703.23.00, with a duty rate of 2.5%, asserting that
“CBP did not follow 19 U.S.C. § 1315(d) or 1625
procedures in changing the classification.” Id. at 2.
CBP denied the protest on June 4, 2013, and, on
August 19, 2013, Ford timely commenced this case. Id.
at 1–2; see also HQ H220856 (Customs’ explanatory
ruling).
After several amendments to the scheduling order,
Parties filed cross-motions for summary judgment and
the court held oral argument on June 8, 2016. See Oral
Argument, ECF No. 104. On October 5, 2016, the court
denied the cross-motions. Ford, 181 F.Supp.3d at
1321–22. The court explained that Parties had provided insufficient information about the cost-reduced
rear seat for the court to properly conduct the analysis
required by the Court of Appeals for the Federal
7

Subheading 8704.31.00, HTSUS, covers “[m]otor vehicles for
the transport of goods.”
8

Legitimate tariff engineering refers to “the long-standing
principle[ ] that merchandise is classifiable in its condition as
imported and that an importer has the right to fashion
merchandise to obtain the lowest rate of duty and the most
favorable treatment.” Confidential HQ H220856 (Jan. 30, 2013)
(“HQ H220856”) at 11, ECF No. 103.

38a
Circuit’s (“Federal Circuit”) decision in Marubeni Am.
Corp. v. United States, 35 F.3d 530 (1994), which spoke
to the distinction between passenger vehicles and
cargo vehicles for the purpose of tariff classification.
Ford, 181 F.Supp.3d at 1319, 1321. The court concluded that “[a]dditional information and evidence
regarding [the cost-reduced car] seat [would] better
enable [it] to determine whether the vehicle’s intended
purpose of transporting persons, as imported, outweighs
an intended purpose of transporting goods.” Ford, 181
F.Supp.3d at 1321 (citing Marubeni, 35 F.3d at 535).
Thereafter, following a telephone conference, on
October 13, 2016, the court ordered Parties to submit
the Joint Supplement regarding the cost-reduced rear
seat. Docket Entry, ECF No. 112.9 As noted above,
submission of the Joint Supplement—and the
additional undisputed material facts stated therein—
has prompted the court to reconsider the Parties’
cross-motions for summary judgment.10
9

After several extensions, the court ordered the Joint
Supplement to be filed by November 23, 2016. See Order (Nov.
17, 2016), ECF No. 116. However, that day, Ford informed the
court that it had just discovered fifty-six “inadvertently unproduced documents” relevant to the cost-reduced rear seats and
responsive to Defendant’s First Requests for Production. Pl.’s
Second Consent Mot. to Extend Time to File a Suppl. Joint
Statement of Facts at 4, ECF No. 117; see also Pl.’s Mot. for a
Limited Extension of Fact Discovery (“Pl.’s Discovery Mot.”) at 2,
ECF No. 121. Ford subsequently moved to reopen discovery,
which the court granted in part. Pl.’s Discovery Mot.; Mem. and
Order (Jan. 9, 2017), ECF No. 126. Parties filed the Joint
Supplement on March 21, 2017. See Joint Suppl.
10

Ford has separately moved to quash or suspend an administrative summons CBP issued to Ford on January 27, 2017.
Confidential Pl.’s Mot. to Quash or Suspend Admin. Summons
(“Mot. to Quash”), ECF No. 140. The United States opposes the
motion. Def.’s Resp. in Opp’n to Pl.’s Mot. to Quash or Suspend

39a
III. Material Facts Not in Dispute
The court’s rule regarding summary judgment requires
the moving party to show that “there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” USCIT Rule
56(a). Movants should present material facts as short
and concise statements, in numbered paragraphs and
cite to “particular parts of materials in the record” as
support. USCIT Rule 56(c)(1)(A). In responsive papers,
the opponent “must include correspondingly numbered
paragraphs responding to the numbered paragraphs
in the statement of the movant.” USCIT Rule 56.3(b).
Concurrent with briefing their respective summary
judgment motions, Parties submitted separate facts,
which contained mixtures of disputed and undisputed
phrases or sentences within a numbered paragraph.11
Admin. Summons, ECF No. 143. CBP issued the administrative
summons pursuant to its authority under 19 U.S.C. § 1509;
it seeks documents that were produced during the course of
discovery in this case and documents that were not. See Mot. to
Quash, Ex. 1, ECF No. 140–1. The statutory scheme generally
rests enforcement of § 1509 summons with federal district courts.
See 19 U.S.C. § 1510. Moreover, as previously noted, this court’s
jurisdiction is limited to the sole entry at issue, Entry Number
300–8620018–3. See supra note 2. The court’s assessment of the
correct classification of Transit Connect 6/7s in the subject entry
depends on the material facts not in genuine dispute developed
through the discovery that occurred in this case. While the court’s
discovery orders control in this case, they do not constrain CBP’s
independent authority pursuant to § 1509; therefore, Ford’s
motion will be denied.
11

The court reviewed each party’s separate submissions of
facts, supplemental facts, and the responses thereto, line by line,
to distill which facts were undisputed by parties. See generally
Confidential Pl. Ford Motor Co.’s R. 56.3 Statement of Undisputed
Material Facts Filed in Conjunction with Pl.’s Mot. for Summ. J.
(“Pl.’s Facts”), ECF No. 96–1; Confidential Def.’s Resp. to Pl. Ford

40a
And, as previously noted, Parties submitted the Joint
Supplement containing supplemental facts specific to
the cost-reduced rear seat. Upon review of Parties’
voluminous separate and joint facts and supporting
documents, the court finds the following undisputed
and material facts regarding the subject merchandise.12

Motor Co.’s R. 56.3 Statement of Material Facts (“Def.’s Resp. to
Pl.’s Facts”), ECF No. 92–6; Def.’s Facts; Pl.’s Resp. to Def.’s
Facts; Confidential Pl.’s Resp. to Def.’s Facts; Pl. Ford Motor Co.’s
Supplemental R. 56.3 Statement of Undisputed Material Facts
(“Pl.’s Suppl. Facts”), ECF No. 97–1; Confidential Def.’s Resp. to
Pl. Ford Motor Co.’s Supplemental R. 56.3 Statement of Material
Facts (“Def.’s Resp. to Pl.’s Suppl. Facts”), ECF No. 94–1. Because
replies to responses to facts are not contemplated in USCIT Rule
56.3, the court disregards 16 paragraphs of Plaintiff’s purported
replies to Defendant’s responses to Plaintiff’s facts in its supplemental fact submission. See Pl.’s Suppl. Facts at 1–7.
Additionally, in the statements of undisputed facts and
responses thereto, Parties sometimes objected to portions of a
statement or the manner in which certain facts were characterized. The court attempted to distill the undisputed facts from
these filings and released a draft Background section to the
Parties prior to issuing its initial decision. See Letter from the
Court (July 20, 2016), ECF No. 105. Parties were invited to
identify whether any of these facts were, indeed, disputed, and to
point to admissible evidence before the court supporting such
claim. See id. Both Parties provided limited comments, which the
court has incorporated. See Confidential Defs.’ Resp. to the
Court’s July 20, 2016 Letter and Draft Undisputed Facts, ECF
No. 106; Confidential Letter to the Court from Gordon D. Todd,
Esq., Counsel for Ford (July 27, 2016), ECF No. 107.
12

For purposes of this discussion, citations are provided to the
relevant paragraph number of the undisputed facts and response,
and internal citations generally have been omitted.

41a
A. History of the Subject Merchandise
The subject merchandise consists of Transit Connect
6/7s.13 Def.’s Facts ¶ 1; Pl.’s Resp. to Def.’s Facts ¶ 1.
Ford derived the Transit Connect 6/7s from a line of
vehicles designed and manufactured in Europe with
the V227 designation. Pl.’s Facts ¶ 2; Def.’s Resp. to
Pl.’s Facts ¶ 2. When considering whether to expand
the European V227 line to the United States, “Ford
researched the European ISV [integrated style vans][14]
market for approximately six months, including researching who the competitors were and how big the market
was” and explored targeting “both personal and commercial customers—such as cleaning services, florists,
newspaper carriers, telephone repair, and food delivery.”
Pl.’s Facts ¶¶ 15–16; Def.’s Resp. to Pl.’s Facts ¶¶ 15–
16. Plaintiff “identified owners of the Chevrolet
Astro/Safari, a minivan used for both passengers and
cargo but that was no longer in production, as possible
customers for the Transit Connect.” Pl.’s Facts ¶ 17;
Def.’s Resp. to Pl.’s Facts ¶ 17.
13

Transit Connect 9s contain the number 9 in the sixth digit
of the VIN. Compl. ¶ 8; Answer ¶ 8. Transit Connect 9s are
imported with a three-passenger second row seat. Joint Suppl. ¶
93 (Transit Connect 9 imported with a three-passenger 60/40
split seat); see also Joint Suppl. ¶ 96 (in MY2010 only, the Transit
Connect 9 was imported with a two-passenger rear seat). The
subject entry contained Transit Connect 9 vehicles; however, only
the Transit Connect 6/7s are at issue. Def.’s Facts ¶¶ 1, 22; Pl.’s
Resp. to Def.’s Facts ¶¶ 1, 22; Joint Suppl. at 4 n.1.
14

While acknowledging that Plaintiff used curly brackets
({Confidential Data Deleted}) in its briefs to designate its
confidential information, the court uses single square brackets
([Confidential Data Deleted]) to designate alterations and omissions, or to explain Parties’ acronyms, and uses double square
brackets ([[Confidential Data Deleted]]) to designate business
proprietary information.

42a
Ford initially considered whether it would be
feasible to manufacture the vehicles in the United
States, but decided to import a vehicle built on the
European V227 production line already in use at its
Otosan plant in Kocaeli, Turkey, because it was more
efficient to use an existing line and the vehicle could
be brought to market sooner. Pl.’s Facts ¶ 19; Def.’s
Resp. to Pl.’s Facts ¶ 19. “Every Transit Connect
manufactured in Turkey was built on the same
production line.”15 Pl.’s Suppl. Facts ¶ 258; Def.’s
Resp. to Pl.’s Suppl. Facts ¶ 258. Ford’s plant in
Otosan used the VIN as a plant inventory control
number. Pl.’s Facts ¶ 35; Def.’s Resp. to Pl.’s Facts
¶ 35. Transit Connect 6/7s received a VIN “during the
manufacturing process . . . then going forward that’s
how the vehicle [was] managed. That [was] the vehicle
identification from that point forward.” Def.’s Facts
¶ 31; Pl.’s Resp. to Def.’s Facts ¶ 31.
The vehicles in Ford’s European V227 line included
the “double-cab-in-van (DCIV),” which was also called
the European Tourneo Connect or Transit Connect,
“depending on the country where sold,” and the “Cargo
Van.” Pl.’s Facts ¶¶ 9, 11; Def.’s Resp. to Pl.’s Facts
¶¶ 9, 11. Ford based the subject merchandise on its
European V227 DCIV, not its Cargo Van. Pl.’s Facts
¶ 21; Def.’s Resp. to Pl.’s Facts ¶ 21. “When Ford began
product planning for the Transit Connect it did not
know what the ‘take rate’—product mix—would be
between retail or fleet, and cargo or passenger, sales.”
Pl.’s Facts ¶ 20; Def.’s Resp. to Pl.’s Facts ¶ 20. Before
it could be imported into the United States as the
Transit Connect 6/7, the European V227 DCIV had to
15

References to Transit Connects, without the “6/7” thereafter, are references to the product line generally and not limited
to the subject imports.

43a
be modified to meet U.S. safety standards, “including
the Federal Motor Vehicle Safety Standards (‘FMVSS’).”
Pl.’s Facts ¶ 25; Def.’s Resp. to Pl.’s Facts ¶ 25. Ford
modified the European V227 DCIV to comply with all
relevant U.S. safety standards and imported the
modified vehicle as the Transit Connect. Pl.’s Facts
¶¶ 26, 32; Def.’s Resp. to Pl.’s Facts ¶¶ 26, 32.16
To meet U.S. safety standards, Ford “redesigned the
underbody support structure for the second row of
seats.” Pl.’s Facts ¶ 29; Def.’s Resp. to Pl.’s Facts ¶ 29;
Joint Suppl. ¶ 22. Ford also “added a side-impact beam
to the sliding side door to meet FMVSS 214” and “a
side-impact foam block to the sliding side door to meet
[the] Insurance Institute of Highway Safety (‘IIHS’)
standards.” Pl.’s Facts ¶ 28; Def.’s Resp. to Pl.’s Facts
¶ 28. Other safety modifications included making changes
“to the vehicle lighting, turn signals and vehicle
labels.” Pl.’s Facts ¶ 27; Def.’s Resp. to Pl.’s Facts ¶ 27.
Ford designed the Transit Connect on the Ford Focus
platform, which means that it has “the same chassis
and drivetrain [as] the Ford Focus passenger vehicle.”
Pl.’s Facts ¶ 4; Def.’s Resp. to Pl.’s Facts ¶ 4.
During the February 2008 Chicago Auto Show,
“Ford displayed Transit Connect models” and “conducted focus groups with potential customers in order
to learn their reactions to the Transit Connect.” Pl.’s
Facts ¶ 90; Def.’s Resp. to Pl.’s Facts ¶ 90. The
following year at the same auto show, Ford displayed
the following configurations of the Transit Connect:

16

Ford also “has its own internal quality, durability[,] and
comfort standards that are customized to each vehicle line based
on consumer expectations.” Joint Suppl. ¶ 1. Those standards
apply to the seats in its vehicles. Id. ¶ 2.

44a
two-passenger, four-passenger,17 and five passenger.
Pl.’s Facts ¶ 91; Def.’s Resp. to Pl.’s Facts ¶ 91. “From
May to June 2009, Ford conducted a 13–city tour
where potential customers were able to drive Transit
Connects,” and “[i]n six of the cities, Ford also did a
press event for the Transit Connect.” Pl.’s Facts ¶ 97;
Def.’s Resp. to Pl.’s Facts ¶ 97; Pl.’s Suppl. Facts at 8
(clarification of Pl.’s Fact ¶ 97); Def.’s Resp. to Pl.’s
Suppl. Facts at 8–9 (response to clarification of Pl.’s
Fact ¶ 97). “Ford advertised the Transit Connects in
magazines and on auto shopping websites.” Pl.’s Facts
¶ 99; Def.’s Resp. to Pl.’s Facts ¶ 99.
The Transit Connect was “a vehicle that could be
readily adapted to suit different customer demands.”
Pl.’s Facts ¶ 20; Def.’s Resp. to Pl.’s Facts ¶ 20. “Each
Transit Connect was built to order.” Pl.’s Facts ¶ 33;
Def.’s Resp. to Pl.’s Facts ¶ 33. Ford “imported the
Transit Connect in two trim series, XL, the base trim
series, and XLT, the upgraded trim series.” Pl.’s Facts
¶ 34; Def.’s Resp. to Pl.’s Facts ¶ 34. All the differences
between the various configurations and trim levels of
the Transit Connect 2012 models that were available
for sale are identified in the MY2012 Brochure,

17

Plaintiff urges that “in an effort to distinguish and
acknowledge the physical differences in the subject merchandise
pre-conversion and post-conversion, [Ford] uses the term ‘fourpassenger wagon’ to describe the subject merchandise prior to the
removal of the second row seat.” Pl.’s Suppl. Facts at 6. However,
“Ford’s MY2012 Specifications Brochure . . . demonstrated that
Ford wagons and vans were different models of the Transit
Connect.” Def.’s Resp. to Pl.’s Suppl. Facts at 13. Furthermore,
the four-passenger configuration was discontinued after MY2010.
See Def.’s Facts ¶ 23; Pl.’s Resp. to Def.’s Facts ¶ 23; Joint Suppl.
¶ 96.

45a
procured by CBP from the Ford website in February
2012. Pl.’s Facts ¶ 69; Def.’s Resp. to Pl.’s Facts ¶ 69.
B. Description of the Subject Merchandise
The Transit Connect 6/7 “was a multipurpose
vehicle manufactured in Turkey and imported into the
United States from 2009–2013.” Pl.’s Facts ¶ 1; Def.’s
Resp. to Pl.’s Facts ¶ 1. The subject imports are “part
of Ford’s U.S. Transit Connect vehicle line.” Def.’s
Facts ¶ 11; Pl.’s Resp. to Def.’s Facts ¶ 11. Transit
Connect 6/7s were “designated within Ford as the
V227N.” Pl.’s Facts ¶ 1; Def.’s Resp. to Pl.’s Facts ¶ 1.
“The V227N vehicles [were] LWB (long wheel base).”
Def.’s Facts ¶ 62; Pl.’s Resp. to Def.’s Facts ¶ 62. The
V227N line “included a van model (Transit Connect
Van) in two trim levels and a Wagon model (Transit
Connect Wagon) in two trim levels,” but “only the
Transit Connect Vans are at issue in this action.”18
Def.’s Facts ¶¶ 15, 16; Pl.’s Resp. to Def.’s Facts ¶¶ 15,
16. All Transit Connects are imported with second row
seats, but the Transit Connect 6/7s are delivered to the
customer as a two seat cargo van. Def.’s Facts ¶ 17;
Pl.’s Resp. to Def.’s Facts ¶ 17.
As imported into the United States, the subject
merchandise had a Gross Vehicle Weight Rating
(“GVWR”)19 of 5005 pounds. Def.’s Facts ¶ 45; Pl.’s
Resp. to Def.’s Facts ¶ 45; Joint Suppl. ¶ 63. A GVWR
18

The court’s understanding is that reference to a van is to a
cargo model (as delivered to the customer), i.e., a Transit Connect
6/7, and reference to a wagon is to a passenger model, i.e., a
Transit Connect 9.
19

Transportation regulations in effect at the time of importation defined GVWR as “the value specified by the vehicle manufacturer as the maximum design loaded weight of a single
vehicle.” 49 C.F.R. § 523.2 (2011).

46a
of 5005 pounds is specific to the two-passenger Transit
Connect 6/7s; five-passenger Transit Connect 9 vehicles
are assigned a GVWR of 4695 pounds. Joint Suppl.
¶ 63. Every Transit Connect contained a Duratec 2.0L,
four cylinder gasoline engine, which is a spark-ignition
internal combustion reciprocating piston engine with
a cylinder capacity of 1999 cc. Pl.’s Facts ¶ 36; Def.’s
Resp. to Pl.’s Facts ¶ 36. In its condition as imported
into the United States, every Transit Connect included:
a steel unibody construction with an interior volume
of approximately 200 cubic feet, which translates to
just under 6m3; front-wheel drive; rear passenger
seats with seat anchors; and underbody bracing. Pl.’s
Facts ¶¶ 38–39, 43, 45; Def.’s Resp. to Pl.’s Facts
¶¶ 38–39, 43, 45. The Transit Connects had Macpherson
strut front suspension, ground clearance of 8.2 inches,
and over 50 inches of space from floor to ceiling in the
rear. Pl.’s Facts ¶¶ 41, 54–55; Def.’s Resp. to Pl.’s Facts
¶¶ 41, 54–55.
At the time of importation into the United States,
the Transit Connect 6/7s had “swing-out front doors
with windows, second-row sliding doors with windows,
and swing-out rear doors, some of which had windows.”
Pl.’s Facts ¶ 49; Def.’s Resp. to Pl.’s Facts ¶ 49. The
sliding side doors met federal safety standards for
passenger vehicles. Pl.’s Facts ¶ 50; Def.’s Resp. to Pl.’s
Facts ¶ 50. At the time of importation into the United
States, no Transit Connect 6/7s “had a panel or barrier
between the first and second row of seats.” Pl.’s Facts
¶ 52; Def.’s Resp. to Pl.’s Facts ¶ 52.
As imported into the United States, the Transit
Connect 6/7s included: second row seats; seat belts for
every seating position; permanent bracing in the side
pillars of the car body; child-locks in the sliding side
doors; dome lighting in the front, middle, and rear of

47a
the vehicle; a full length, molded cloth headliner; coat
hooks in the second row; and a map pocket attached to
the rear of the front driver seat. Pl.’s Facts ¶¶ 44, 47–
48, 51, 57–60; Def.’s Resp. to Pl.’s Facts ¶¶ 44, 47–48,
51, 57–60. The Transit Connect 6/7s also had “front
vents” and “front speakers.” Pl.’s Facts ¶ 68; Def.’s
Resp. to Pl.’s Facts ¶ 68; Pl.’s Suppl. Facts at 720
(clarification of Pl.’s Fact ¶ 68); Def.’s Resp. to Pl.’s
Suppl. Facts at 6 (response to clarification of Pl.’s Fact
¶ 68); Def.’s Facts ¶ 118; Pl.’s Resp. to Def.’s Facts
¶ 118.
There were “two cupholders in the center console
and a compartment at the rear of the center console to
create an optional third cupholder.” Pl.’s Suppl. Facts
¶ 255; Def.’s Resp. to Pl.’s Suppl. Facts ¶ 255. The
Transit Connect 6/7s had carpeted footwells in front of
the second row seat. Pl.’s Facts ¶ 53; Def.’s Resp. to
Pl.’s Facts ¶ 53; Pl.’s Suppl. Facts at 7 (clarification of
Pl.’s Fact ¶ 53) & ¶ 255; Def.’s Resp. to Pl.’s Suppl.
Facts at 5 (response to clarification of Pl.’s Fact ¶ 53)
& ¶ 255.
As explained below,21 the second row seats in the
Transit Connect 6/7s did not include “headrests,

20

Plaintiff provided revised facts in a section titled
“Clarification of Facts Originally Included in Ford’s Statement of
Undisputed Material Facts.” See Pl.’s Suppl. Facts at 7–10. While
USCIT Rule 56.3 does not address the opportunity to clarify
original facts, Defendant did not object to Plaintiff’s clarification
of its original facts and, in fact, submitted responses thereto. See
Def.’s Resp. to Pl.’s Suppl. Facts at 2–21. Accordingly, the court
has taken into consideration Plaintiff’s clarified facts, and
Defendant’s responses thereto.
21

See infra Section III.C.

48a
certain [seatback ] wires, a tumble lock mechanism[,]
or accompanying labels,” and were “wrapped in a
cost[-]reduced fabric.” Pl.’s Facts ¶ 44; Def.’s Resp. to
Pl.’s Facts ¶ 44; see also Def.’s Facts ¶ 114; Pl.’s Resp.
to Def.’s Facts ¶ 114. The Transit Connect 6/7s did not
have rear (behind the front seats) vents, speakers, and
handholds. Def.’s Facts ¶¶ 19–21; Pl.’s Resp. to Def.’s
Facts ¶¶ 19–21; Def.’s Facts ¶ 118; Pl.’s Resp. to Def.’s
Facts ¶ 118. The subject imports did not have side
airbags in the area behind the front seats. Def.’s Facts
¶ 18; Pl.’s Resp. to Def.’s Facts ¶ 18.23 The Transit
Connect 6/7s did not come with a cargo mat and the
painted metal floor of the cargo area was left exposed.
Def.’s Facts ¶ 119; Pl.’s Resp. to Def.’s Facts ¶ 119.
22

The XL trim line of the Transit Connect 6/7s “did not
have front map lights, a CD player, a power equipment
group (including windows, locks, exterior mirrors[,]
and remote keyless-entry with fobs), 12V powerpoint
in the rear[,] or cruise control.” Pl.’s Facts ¶ 67; Def.’s
Resp. to Pl.’s Facts ¶ 67. Ford also manufactured the
XLT (and XLT Premium) trim line of the Transit
Connect 6/7 that included such features. Plaintiff’s Ex.
A ¶ 82 (Ex. 79, T–1227) (Transit Connect Order
Guide). The subject entry contained Transit Connect
6/7s in both trim levels. Joint Suppl. ¶ 4.

22

Parties (and, thus, the court) had previously referred to
these “seatback wires” as “comfort wires.” See, e.g., Compl. ¶ 53;
Pl.’s Facts ¶ 44; Def.’s Resp. to Pl.’s Facts ¶ 44; Ford, 181
F.Supp.3d at 1321. Recently produced documents drafted by
Otosan employees use the term “seatback wires”; thus, Parties
have agreed to refer, instead, to that term. Joint Suppl. at 5 n.2.
23

The Transit Connect 9 also lacked rear vents, armrests,
handholds, and side airbags. Def.’s Facts ¶¶ 27–30; Pl.’s Resp. to
Def.’s Facts ¶¶ 27–30.

49a
After importation into the United States, but before
leaving the port, the Transit Connect 6/7s “were
labeled with Monroney labels, commonly known as
window stickers, Smog Labels and Loose Item/Ramp
labels.” Pl.’s Facts ¶ 75; Def.’s Resp. to Pl.’s Facts ¶ 75;
Def.’s Facts ¶ 123; Pl.’s Resp. to Def.’s Facts ¶ 123;
Oral Arg. Tr. 91:3–14 (stipulating “to the fact that
Monroney labels, were in fact, attached to the subject
Transit Connect 6/7s after they cleared customs, but
before they left the port facility”).
The Transit Connect 6/7s were finally “delivered to
customers as two-seat cargo vans.” Def.’s Facts ¶ 130;
Pl.’s Resp. to Def.’s Facts ¶ 130; see also Joint Suppl.
¶ 89.
C. Development of the Cost–Reduced Rear Seat
From MY2010 to MY2012
1. The MY2010 Transit Connect 6/7
In 2009, Ford began importing MY2010 Transit
Connect 6/7s. Joint Suppl. ¶ 5. At the time of importation, MY2010 Transit Connect 6/7s contained a twopassenger rear seat that “was the same as the ‘60’
portion of the ‘60/40 three-passenger rear seat in the
[MY2012] Transit Connect 9 vehicles.” Joint Suppl.
¶¶ 6–7, 97.24 “The seat structure and folding mechanisms of the [MY2010 Transit Connect 6/7] [r]ear
[s]eat were designed to meet Ford’s internal durability
standards, which are intended to ensure a lifetime of
trouble-free use, or approximately 150,000 miles of
normal use.” Id. ¶ 8.
The MY2010 Transit Connect 6/7 rear seat had a
seatback frame and a cushion frame (for the bottom of
24

Transit Connect 9s are delivered to customers with a threepassenger rear seat. Joint Suppl. ¶ 93.

50a
the seat). Id. ¶ 9. The rear seatback frame “was
constructed of 40mm diameter steel tubing . . . with a
vertical tubular reinforcement” that “support[ed] the
seatbelt retractor and seat foam.” Id. ¶ 10. Welded to
the seatback frame were: (1) a “retractor mount for the
right seating position,” (2) a “seatbelt shoulder guide
for the right seating position,” and (3) a “seatback
latch mechanism.” Id. ¶ 10(a),(b),(d).25 The seatbelt
retractor mount, shoulder guide, and seatback latch
mechanism were designed and built to withstand a
collision. Id. ¶ 10(c)(ii),(d)(ii).
“The seatback frame had seven seatback wires
welded to it.” Id. ¶ 10(e)(footnote omitted). “[S]eatback
wires provided lumbar support, passenger comfort,
support for cargo when folded flat, and support for the
seat foam and fabric.” Id. ¶ 10(e)(i).26 The torsion bar
assembly and torsion bar mount, which helped to
“hold[ ] the back of the seat down when folded against
the seat cushion,” were located in the seatback frame,
id. ¶ 11, along with a “short, eighth wire[,] that worked
in conjunction with the torsion bar assembly,” id.
¶ 10(e)(iii).
The cushion frame “was constructed of formed 25mm
diameter steel tubing” with “an additional 25mm steel
tube running down the center of the seat.” Id. ¶ 14.
The cushion frame contained “[s]eat bottom wires”
that “crisscrossed across the seat cushion frame from
top to bottom and side to side” and helped to “keep the
seat foam in place and provide support for the
25

The seatbelt retractor mount and shoulder guide for the left
seat were attached to the vehicle interior. Id. ¶ 10(c)(i).
26

The seatback frame consisted of [[Confidential Data
Deleted]] and [[Confidential Data Deleted]]. Confidential Joint
Ex. B–1.

51a
passengers.” Id. ¶ 14(f)-(g). The LATCH system, which
enables a LATCH-equipped child car seat to be fitted
to the seat, and which satisfies federal motor vehicle
safety standards, was welded to the cushion frame. Id.
¶ 14(a). Two floor latches secured the seat to the floor.
Id. ¶ 14(b).
The rear seatback and seat cushion contained high
density polyurethane foam. Id. ¶ 15. The side of the
foam coming into contact with passengers was
contoured for lumbar and lateral support; the frame
side was contoured to fit into the seat frame. Id.
¶ 15(a). The frame contours, seat cushion, seatback
wires, and seat cover held the foam in place. Id.
¶ 15(b). Other than the rear-facing portion of the back
seat, which contained a backrest reinforcement pad,27
the seatback and cushion were covered in the same
flame retardant fabric as the front seats. Id. ¶¶ 16,
16(b), 17. The bottom of the rear seat was covered with
black mesh fabric. Id. ¶ 18. Black paint covered the
visible, metal portions of the rear seat. Id. ¶ 19.
The rear seat came equipped with seatback pivot
brackets, which operated as a hinge enabling the
seatback to fold down onto the seat cushion, id. ¶ 13,
and a tumble lock mechanism, which held the seat
in place when it was folded forward against the
front seats, id. ¶ 24(b). The tumble lock mechanism
consisted of a cover, strut rod assembly, tumble lock
mechanism assembly, and various screws, pins, and
labels. Id. ¶ 24(a). The rear seat included a label
that “illustrate[d] how to flip the seat forward and
contained an illustration referencing the owner’s
27

The backrest reinforcement pad consisted of “a single piece
of foam located under the back fabric to cover the interior foam
and framing of the seat for cosmetic purposes.” Joint Suppl. ¶ 17.

52a
manual,” and “two red indicator flags on the rear floor
latches that showed whether the seat was locked into
place.” Id. ¶¶ 24(c), 25. The rear seat also came
equipped with a small rubber pad on the rear leg to
decrease noise and vibration around the rear floor
latches. Id. ¶ 26.
The rear seat had seatbelts for each seating position,
id. ¶ 27, and “an adjustable head restraint,” though
“head restraints are not required to satisfy the
FMVSS,” id. ¶¶ 28, 28(a).
2. Cost-reduced Seat Version 1
In late 2008, “Ford and Otosan began investigating
the creation of a cost[ ] reduced car seat for use in
Transit Connect 6/7 vehicles.” Id. ¶ 29.28 During the
investigation, the North American V227 Program
Manager stated that the “[c]heaper seat still needs to
meet all crash requirements. Thought is that, for
example, it does not fold or tumble forward. Dont [sic]
touch cushion or fabric.” Id. ¶ 86.
In mid-MY2010, Ford created its first cost-reduced
seat (“CRSV–1”) for use in Transit Connect 6/7s. Id.
¶ 32. The implementation of CRSV–1 resulted in the
removal of the head restraints, torsion bar assembly
and mount, tumble lock mechanism and associated
labels, and backrest reinforcement pad from the
MY2010 Transit Connect 6/7 rear seat. Id. ¶ 33(a)-(d).
“Ford and Otosan used engineering judgment in
lieu of physical testing to assert compliance with all
applicable FMVSS.” Id. ¶ 34. Ford and Otosan
determined that physical testing of the CRSV–1 was
not necessary because “the main frame of the seat
28

Cost reduction changes were not made to the Transit
Connect 9’s rear seat. Id. ¶ 100.

53a
structure [was] not changed,” the removed components had “no effect on the compliance of strength
tests” associated with certain FMVSS, and compliance
with FMVSS 202 is only required when “there [are]
head restraint[s].” Id. ¶ 34; Confidential Joint Ex. 30,
ECF No. 132–3 (letter from Ford/Otosan engineers
explaining why engineering judgment was relied upon);
see also Joint Suppl. ¶ 35 (physical testing was limited
to that performed on the original MY2010 rear seat).
Ford also did not conduct consumer testing or surveys
before installing the CRSV–1 in Transit Connect 6/7s.
Joint Suppl. ¶ 37. Ford briefly imported Transit
Connect 6/7s with the CRSV–1 installed at the time of
importation into the United States. Id. ¶ 38.
3. Cost-reduced Seat Version 2
In 2009, “Otosan began considering ways to further
reduce the cost” of the Transit Connect 6/7 rear seat.
Id. ¶ 39. In March 2010, an Otosan engineer sent
Michael Andrus, of Ford’s Automotive Safety Office,
the following email:
I am D & R engineer of V227 (transit connect)
seats in Ford–Otosan Turkey. We have a cost
reduction study for 2nd row seats. We have
decided to delete some parts at V227 NA vehicle
2nd row seats as cost reduction item which will be
scrapped in US. Tumble mechanism, torsion bar
and headrests were deleted at the first cost
reduction study of 2nd row seats. I want to share
some delete part opportunities with you for the
second cost reduction study and need your decisions if any test required for these changes. Again
I want to remind that, these seats will be scrapped
in US, will not be used anytime, however we
should send the seats with meeting requirements.

54a
Id. ¶ 41; see also id. ¶ 87 (referring to statement by
Otosan engineer that seats shipped to the United
States should “meet all applicable seat requirements”).
In late 2010, Ford created its second cost-reduced
seat (“CRSV–2”), id. ¶ 42,29 which incorporated the
following changes from CRSV–1: (1) removal of four of
the seven seatback wires, including three vertical
wires and one horizontal wire, and a fifth short wire
associated with the torsion bar assembly, which had
been removed in the CRSV–1; (2) wrapping of the seat
in a cost-reduced fire-resistant grey woven cover
originally used only on the back of the MY2010 Transit
Connect 6/7 rear seat, and which is not the same as
the fabric used to cover the front seat; (3) replacement
of the front leg seat anchor cover, which was designed
to attach to the tumble lock mechanism, “with a cover
that did not contain a space for the [t]umble [l]ock
[m]echanism”; (4) removal of the red indicator flags
and housings associated with the tumble lock mechanism “to leave a bare metal lever”; and (5) removal of
the small rubber pad from the rear seat leg intended
to decrease noise and vibration from around the rear
floor latches, id. ¶ 44(a)-(f). At some time, Ford also
removed the fabric mesh covering the rear seat bottom
and stopped applying black paint to the visible, metal
portions of the seat frame. Id. ¶ 45(a)-(b).30 The
MY2012 Transit Connect 6/7s at issue in this litigation

29

Otosan bought MY2012 Transit Connect 6/7 rear seats from
a third party supplier. Id. ¶ 49. Each CRSV–2 cost Otosan about
[[Confidential Data Deleted]] than the MY2012 Transit Connect
9 three-passenger rear seat. Id. ¶¶ 94–95.
30

Ford is unable to identify when these changes occurred;
however, these changes were reflected in the rear seats contained
in the subject merchandise at the time of importation. Id. ¶ 45.

55a
contained the CRSV–2 installed at the time of
importation. Id. ¶¶ 43, 88.31
“Ford did not conduct consumer testing or surveys”
before implementing the CRSV–2. Id. ¶ 51. Ford and
Otosan used physical testing and engineering judgment to determine that the CRSV–2 did not require
additional testing. Id. ¶¶ 52, 61. Specifically, Otosan
directed the CRSV–2 supplier to conduct “H–Point”32
testing to determine whether any changes, including
the fabric change and removal of seatback wires,
resulted in changes to the original hip point. Id. ¶¶ 53,
55. If H–Point testing reflected changes from the
original hip point, then additional tests or engineering
changes may be necessary to confirm FMVSS compliance.33 Id. ¶ 58. Based on the H–Point test results,
Otosan engineers concluded that the fabric change
and removal of seatback wires did not affect the
CRSV–2’s FMVSS compliance. Id. ¶ 59; see also id.
¶ 60 (Otosan engineers stated that removing seatback
wires did not affect the strength of the seat); Id. ¶ 64
31

However, Transit Connect 6/7s “were offered, ordered, [and]
considered sold to customers without the [rear seat installed].”
Id. ¶ 89.
32

“H-point” stands for “Hip–Point.” Id. ¶ 54. “The ‘H–Point’ is
the pivot point where the femur pivots in the ball joint on the hip
bone. The H–Point is related to other federal standards, such as
where [the] seatbelts are located, and [the] angles [of] and
accessibility to seat belts.” Id. H–Point testing utilizes a
procedure developed by the Society of Automotive Engineers and
designed to measure a “standardized seating reference point for
each vehicle.” Id. ¶ 56.
33

Several FMVSS applied to the CRSV–2, including FMVSS
207 (seating systems), FMVSS 208 (occupant crash protection),
FMVSS 209 (seat belt assemblies), FMVSS 210 (seat assembly
anchorages), and FMVSS 225 (child restraint anchor systems).
Id. ¶ 50(a)-(e).

56a
(other than the H—Point test, Ford conducted no other
additional physical testing beyond the testing performed on the original seat). Ford affixed a safety
certification label to each Transit Connect 6/7 at issue
certifying that the vehicle complied with all applicable
FMVSS requirements. Id. ¶ 62.34
D. Post–Importation Processing35 of Subject
Merchandise
After subject imports cleared Customs, but were
still within the confines of the port, processing
procedures were conducted on all Transit Connects
and, additionally, certain features were removed or
altered in the Transit Connect 6/7s. “The port processing procedures carried out on all Transit Connect
vehicles included removing Rap–Gard, a protective
covering during shipment; disengaging Transportation
34

Defendant disputes Plaintiff’s assertion that the MY2012
Transit Connect 6/7, and, specifically, the CRSV–2, in fact met
federal safety standards. See id. ¶¶ 101–102 (Ford’s facts and
CBP’s responses thereto); see also id. ¶ 129 (CBP’s fact and Ford’s
response) (Plaintiff disputes Defendant’s assertion that certifying
FMVSS compliance does not mean that the vehicle is FMVSS
compliant). However, Parties do not dispute the general proposition that changes to the H–Point suggest that further testing may
be required to confirm FMVSS compliance, id. ¶ 58, and that, in
this case, Otosan engineers determined that the changes
associated with the CRSV–2 did not affect the seat’s H–Point or,
therefore, its FMVSS compliance, id. ¶ 59.
35

The court notes that Defendant objects to the term “postimportation processing” as “vague.” See, e.g., Def.’s Resp. to Pl.’s
Facts ¶ 79. There is, however, no dispute that rear seats are
removed, along with other post-importation alterations, after
importation but while still at the port. The court utilizes “postimportation processing” throughout this opinion as a short-hand
term recognizing the undisputed alterations and the undisputed
timing of those alterations.

57a
Mode; and checking for low fuel.” Pl.’s Facts ¶ 74;
Def.’s Resp. to Pl.’s Facts ¶ 74. For Transit Connect
6/7s, additional post-importation processing entailed:
the second-row seat was unbolted and removed,[36]
along with the associated second row safety
restraints. A steel panel was then bolted into the
second row footwell to create a flat surface behind
the first rows of seats. A molded cargo mat was
placed over the floor behind the first row. Scuff
plates were added inside the second-row doors. In
some vehicles the sliding door windows were
replaced with a solid panel.
Pl.’s Facts ¶ 78; Def.’s Resp. to Pl.’s Facts ¶ 78.37 Prior
to the subject merchandise being ordered or manufactured, “Ford had entered into a contract with its port
processor” to conduct the post-importation processing.
Def.’s Facts ¶ 125; Pl.’s Resp. to Def.’s Facts ¶ 125.
The following features remained in the Transit
Connect 6/7s after the post-importation processing:
underbody second-row seat support; anchors and
fittings for the second-row seat, permanent bracing
in the side pillars to support the removed safety
restraints; and the beam and foam in the side sliding

36

Ford considered returning the rear seats to Turkey for reuse. Joint Suppl. ¶ 82. However, Turkish customs laws precluded
the re-importation of the seats, and, thus, the North American
V227 Program Manager directed Ford to research a cost-reduced
car seat that met “all requirements except [that] it simply [did]
not fold and flip.” Id. ¶¶ 83–84. The removed seats were recycled
or otherwise disposed of. Id. ¶ 85.
37

Transit Connect 9s did not undergo this additional postimportation processing. Id. ¶ 93 (the Transit Connect 9 was
delivered with a rear car seat).

58a
doors for rear passenger crash protection.38 Pl.’s Facts
¶ 80; Def.’s Resp. to Pl.’s Facts ¶ 80; Pl.’s Suppl. Facts
¶ 255; Def.’s Resp. to Pl.’s Suppl. Facts ¶ 255; Joint
Suppl. ¶ 91.
E. CBP’s Investigations of Subject Merchandise
“Between April 17, 2009, and 2013,” Ford imported
the Transit Connects through the Ports of Baltimore,
Maryland, Jacksonville, Florida, Los Angeles–Long
Beach, California, and Port Hueneme, California. Pl.’s
Facts ¶ 137; Def.’s Resp. to Pl.’s Facts ¶ 137. From
March 1, 2010 through November 23, 2012, “there
were 477 liquidations of entries containing Transit
Connect vehicles classified under subheading 8703.23.00,
HTSUS, with 446 entries as bypass liquidations, i.e.,
unreviewed, and 31 entries reviewed by CBP personnel” without a physical inspection of the goods by an
import specialist. Def.’s Facts ¶ 139; Pl.’s Resp. to
Def.’s Facts ¶ 139. As part of Customs’ compliance
validation, Customs reviewed “Ford’s entry documents”
for at least nineteen entries, and of those nineteen
validated entries, eight were “found to be compliant.”
Pl.’s Facts ¶¶ 142–43; Def.’s Resp. to Pl.’s Facts
¶¶ 142–43.
In the winter of 2011 to 2012, CBP Supervisory
Import Specialist Gerald Stroter and Import Specialists
Tamiko Bates and Jeremy Jackson conducted a Trade
Compliance Measurement Review as part of Tamiko
Bates’ training at the Port of Baltimore.39 Pl.’s Facts
38

The anchor holes for the second row seat are plugged and no
longer readily accessible after post-importation processing. Id.
¶ 92.
39

The fact that a review took place is not in dispute; however,
Parties present two different dates, within a month of each other,
indicating when the review occurred. Plaintiff asserted the

59a
¶ 151; Def.’s Resp. to Pl.’s Facts ¶ 151. One of the
entries covered in the Trade Compliance Measurement
Review was of a Transit Connect 6/7. Pl.’s Facts ¶ 152;
Def.’s Resp. to Pl.’s Facts ¶ 152. Mr. Stroter noticed
that “the difference between the passenger version
and the cargo version of the Transit Connect appeared
to be that the passenger version had a rear seat and
the cargo version did not.” Pl.’s Facts ¶ 155; Def.’s
Resp. to Pl.’s Facts ¶ 155.
As a result of the aforementioned review, Import
Specialists “believed that the [Transit Connect 6/7s]
were being misclassified.” Pl.’s Facts ¶ 157; Def.’s
Resp. to Pl.’s Facts ¶ 157; Pl.’s Suppl. Facts at 8–9
(clarification of Pl.’s Fact ¶ 157); Def.’s Resp. to Pl.’s
Suppl. Facts at 14 (response to clarification of Pl.’s
Fact ¶ 157). On February 6, 2012, Mr. Jackson
submitted a QUICS query40 to the National Import
Specialists describing the Transit Connect 6/7 “based
on what was shown on Ford’s website.” Pl.’s Facts
¶¶ 158–59; Def.’s Resp. to Pl.’s Facts ¶¶ 158–59.
On February 9, 2012, Mr. Stroter, Mr. Jackson, and
CBP Officer Eric Dausch went to the Port of Baltimore
“to physically inspect a [Transit Connect 6/7],” and at
this time, Mr. Jackson “noticed that some Transit
Connect vehicles had rear windows and some did not.”
review was conducted in December 2011, and Defendant asserted
the review was initiated on January 17, 2012. Pl.’s Facts ¶ 151
(citing Ex. M 60:11–62:7); Def.’s Resp. to Pl.’s Facts ¶ 151 (citing
Def.’s Ex. 20). The court finds that this difference is immaterial
to the undisputed fact that a review took place.
40

A QUICS query is “a mechanism by which import specialists
are able to circulate [classification] questions to the National
Import Specialists”; however, the “response is advisory and [ ] not
binding.” Pl.’s Facts ¶¶ 158–59; Def.’s Resp. to Pl.’s Facts ¶¶ 158–
59.

60a
Pl.’s Facts ¶¶ 160–61; Def.’s Resp. to Pl.’s Facts
¶¶ 160–61. Mr. Stroter and Mr. Jackson learned that
“vehicles with VIN’s containing the characters S6 or
S7 . . . were consistently discovered to be 2–passenger
cargo vans while those with the characters S9 were
identified as 5–passenger vehicles.” Pl.’s Facts ¶ 166
(internal quotations omitted); Def.’s Resp. to Pl.’s
Facts ¶ 166.
That day, Mr. Jackson “emailed Richard Laman, the
National Import Specialist responsible for reviewing
Jackson’s earlier QUICS message,” describing “the
vehicles that he physically inspected, and included the
pictures that were taken of the vehicles during his
visit.” Pl.’s Facts ¶ 163; Def.’s Resp. to Pl.’s Facts
¶ 163. Mr. Jackson viewed Mr. Laman “as responsible
for setting the policy for how the Transit Connect [6/7]
would be classified.” Pl.’s Facts ¶ 163; Def.’s Resp. to
Pl.’s Facts ¶ 163.
On February 22, 2012, the Assistant Special Agent
in Charge of U.S. Immigration and Customs Enforcement in Baltimore was notified of the “Investigation
into Proper Classification of Ford Connect Vans.” Pl.’s
Facts ¶ 169; Def.’s Resp. to Pl.’s Facts ¶ 169. On
February 23, 2012, the Port of Baltimore notified Ford
that CBP had “initiated an investigation into Ford
Motor Company importations” and the “declaration of
vehicles classified under the Harmonized Tariff Schedule
of United States (HTSUS) headings 8704 and 8703.”
Pl.’s Facts ¶ 172; Def.’s Resp. to Pl.’s Facts ¶ 172.
On February 24, 2012, CBP Officer Benjamin
Syzmanski contacted Mr. Stroter and informed him
for the first time that cargo vans “are imported in [sic]
as passenger vans.” Pl.’s Facts ¶ 185; Def.’s Resp. to
Pl.’s Facts ¶ 185. Mr. Syzmanski explained that “the
Transit Connect vans make entry into the port and

61a
then are fully released by CBP. Only after the vans
have been released by CBP . . . does Ford move the
vans to a facility within the Baltimore Port limits and
select vans are gutted/stripped/altered to become
cargo vans.” Pl.’s Facts ¶ 185 (internal quotations
omitted); Def.’s Resp. to Pl.’s Facts ¶ 185.
On June 8, 2012, the Assistant Director for Trade
Operations of the Port of Baltimore, Thomas Heffernan,
requested Internal Advice from CBP’s Office of Regulations and Rulings regarding the proper classification
of the Transit Connect 6/7s. Pl.’s Facts ¶¶ 87d, 216;
Def.’s Resp. to Pl.’s Facts ¶¶ 87d, 216; Def.’s Facts
¶ 145; Pl.’s Resp. to Def.’s Facts ¶ 145. On January 30,
2013, in response to Mr. Heffernan’s request for
Internal Advice, CBP Headquarters issued ruling HQ
H220856 to the Baltimore Field Office. Pl.’s Facts
¶ 237; Def.’s Resp. to Pl.’s Facts ¶ 237; Def.’s Facts
¶ 146; Pl.’s Resp. to Def.’s Facts ¶ 146. HQ H220856
held that the Transit Connect 6/7s were “properly classifiable as ‘Motor vehicles for the transport of goods,’
under subheading 8704.31.00, HTSUS, dutiable at the
rate of 25% ad valorem.” Def.’s Facts ¶ 147; Pl.’s Resp.
to Def.’s Facts ¶ 147.
JURISDICTION AND STANDARD OF REVIEW
The Court has subject matter jurisdiction pursuant
to 28 U.S.C. § 1581(a)(2012).41 Jurisdiction is uncontroverted in this case. Pl.’s Facts ¶ 244–49; Def.’s Resp.
to Pl.’s Facts ¶ 244–49.
The Court may grant summary judgment when
“there is no genuine issue as to any material fact,” and
41

All references to the United States Code are to the 2012
edition, which is the same in all relevant respects as the version
in effect at the time of importation.

62a
“the moving party is entitled to judgment as a matter
of law.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
247, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986); USCIT R.
56(a). The court’s review of a classification decision
involves two steps. First, it must determine the meaning of the relevant tariff provisions, which is a question
of law. See Bausch & Lomb, Inc. v. United States, 148
F.3d 1363, 1365 (Fed. Cir. 1998) (citation omitted);
see also id. at 1366 (characterizing the first step as
“constru[ing] the relevant (competing) classification
headings”). Second, it must determine “what the
merchandise at issue is,” which is a question of fact.
Id. at 1366. When no factual dispute exists regarding
the merchandise, summary judgment is appropriate
and resolution of the classification turns solely on the
first step. See id. at 1365–66; id. at 1365 (“The
ultimate question in a classification case is whether
the merchandise is properly classified under one or
another classification heading,” which is “a question of
law[ ] . . . because what is at issue is the meaning of
the terms set out in the statute . . . .”) (citations
omitted); see also Sigma–Tau HealthScience, Inc. v.
United States, 838 F.3d 1272, 1276 (Fed. Cir. 2016)
(citations omitted).
The court reviews classification cases on “the basis
of the record made before the court.” 28 U.S.C. § 2640(a).
While the court accords deference to Customs’ classification rulings relative to their “‘power to persuade,’”
United States v. Mead Corp., 533 U.S. 218, 235, 121
S.Ct. 2164, 150 L.Ed.2d 292 (2001) (quoting Skidmore
v. Swift & Co., 323 U.S. 134, 140, 65 S.Ct. 161, 89
L.Ed. 124 (1944)), it has “an independent responsibility to decide the legal issue of the proper meaning
and scope of HTSUS terms,” Warner–Lambert Co. v.
United States, 407 F.3d 1207, 1209 (Fed. Cir. 2005)
(citing Rocknel Fastener, Inc. v. United States, 267

63a
F.3d 1354, 1358 (Fed. Cir. 2001)). It is “the court’s duty
to find the correct result, by whatever procedure is best
suited to the case at hand.” Jarvis Clark Co. v. United
States, 733 F.2d 873, 878 (Fed. Cir. 1984).
DISCUSSION
I. Legal Framework
The General Rules of Interpretation (“GRIs”) provide
the analytical framework for the court’s classification
of goods. See N. Am. Processing Co. v. United States,
236 F.3d 695, 698 (Fed. Cir. 2001). “The HTSUS is
designed so that most classification questions can
be answered by GRI 1.” Telebrands Corp. v. United
States, 36 CIT ——, ——, 865 F.Supp.2d 1277, 1280
(2012), aff’d 522 Fed. Appx. 915 (Fed. Cir. 2013). GRI
1 states that, “for legal purposes, classification shall
be determined according to the terms of the headings
and any [relevant] section or chapter notes.” GRI 1,
HTSUS.42
“Absent contrary legislative intent, HTSUS terms
are to be ‘construed [according] to their common and
popular meaning.’” Baxter Healthcare Corp. v. United
States, 182 F.3d 1333, 1337 (Fed. Cir. 1999) (quoting
Marubeni, 35 F.3d at 533 (Fed. Cir. 1994)). Courts may
42

The court considers chapter and section notes of the HTSUS
in resolving classification disputes because they are statutory
law, not interpretive rules. See Arko Foods Int’l, Inc. v. United
States, 654 F.3d 1361, 1364 (Fed. Cir. 2011) (citations omitted);
see also Park B. Smith, Ltd. v. United States, 347 F.3d 922, 929
(Fed. Cir. 2003) (chapter and section notes are binding on the
court). Here, however, there are no chapter or section notes
relevant to the classification of MY2012 Transit Connect 6/7s.
Accordingly, the court considers the common meaning of the
relevant tariff terms. See Marubeni, 35 F.3d at 534 (absent
legally binding chapter or section notes, the court need only
consider the common meaning of relevant tariff terms).

64a
rely upon their own understanding of terms or consult
dictionaries, scientific authorities, and other reliable
information. Brookside Veneers, Ltd. v. United States,
847 F.2d 786, 789 (Fed. Cir. 1988); BASF Corp. v.
United States, 35 CIT ——, ——, 798 F.Supp.2d 1353,
1357 (2011). For additional guidance on the scope and
meaning of tariff headings and chapter and section
notes, the court also may consider the Explanatory
Notes to the Harmonized Commodity Description
and Coding System, developed by the World Customs
Organization. See Deckers Outdoor Corp. v. United
States, 714 F.3d 1363, 1367 n.1 (Fed. Cir. 2013).
Although Explanatory Notes do not bind the court’s
analysis, they are “indicative of proper interpretation”
of the tariff schedule. Lynteq, Inc. v. United States, 976
F.2d 693, 699 (Fed. Cir. 1992) (quoting H.R. Rep. No.
100–576, at 549 (1988) (Conf. Rep.), reprinted in 1988
U.S.C.C.A.N. 1547, 1582) (quotation marks omitted).
II. Competing Tariff Provisions
Customs liquidated the subject imports as motor
vehicles for the transport of goods pursuant to subheading 8704.31.00. See HQ H220856 at 13. Defendant
contends Customs correctly classified the subject
imports, and that Customs’ ruling deserves deference.
Subheading 8704.31.00 covers:
8704 Motor vehicles for the transport of goods:
Other, with spark-ignition internal combustion
piston engine:
8704.31.00 G.V.W. not exceeding 5 metric
tons ..................................... 25%
Ford contends the subject imports are motor
vehicles principally designed for the transport of

65a
persons, classifiable under subheading 8703.23.00.
That subheading covers:
8703

Motor cars and other motor vehicles
principally designed for the transport of
persons (other than those of heading
8702), including station wagons and
racing cars:

Other vehicles, with spark-ignition internal
combustion reciprocating piston engine:
8703.23.00 Of a cylinder capacity
exceeding 1,500 cc but not
exceeding 3,000 cc .... 25%
When GRI 1 analyses demonstrate that merchandise is prima facie classifiable under two or more
headings, it will be classified under “[t]he heading
[that] provides the most specific description.” GRI 3(a).
Here, heading 8703 affords the most specific description; thus, if the Transit Connect 6/7s satisfy the
requirements of heading 8703, “there is no need to
discuss [heading] 8704.” See Marubeni, 35 F.3d at 536.
However, if the Transit Connect 6/7 is not classifiable
under heading 8703, it falls within heading 8704.43
III. Classification is Based on the Article’s
Condition at the Time of Importation
Parties agree that the Federal Circuit’s test for
distinguishing between passenger vehicles and cargo
vehicles governs this court’s resolution of the instant
dispute. See, e.g., Pl.’s MSJ at 25–29; Def.’s XMSJ at
43

Parties do not dispute the assignment of the subject
merchandise under an appropriate subheading. If Plaintiff prevails, classification will be under subheading 8703.23.00, based
on engine size. If Defendant prevails, classification will be under
subheading 8704.31.00, based on weight.

66a
16; see also Marubeni, 35 F.3d 530. In Marubeni, the
court decided the proper classification of the 1989
and 1990, two-door, two-wheel, and four-wheel drive
Nissan Pathfinder when the sports utility vehicle first
entered the market. 35 F.3d at 532. The Marubeni
court considered two possible HTSUS headings—8703
and 8704—the same two headings at issue in the
instant case, id. at 533, and concluded that to be
“principally designed for the transport of persons,” the
vehicle must “be designed ‘more’ for the transport of
persons than goods,” id. at 534 (citing Webster’s Third
New International Dictionary of the English Language,
Unabridged (1986) (defining “principally” as “in the
chief place, chiefly,” and defining “designed” as “done
by design or purposefully”); see also id. at 535 (classification under heading 8703 requires “that a vehicle’s
intended purpose of transporting persons must outweigh
an intended purpose of transporting goods.”). The
Marubeni court held that the proper classification of
the Nissan Pathfinder was under heading 8703,
encompassing motor cars and other motor vehicles
principally designed for the transport of persons, and
affirmed the Court of International Trade’s (“CIT”)
decision. Id. at 532 (affirming Marubeni Am. Corp. v.
United States, 17 CIT 360, 821 F.Supp. 1521 (1993)).
In so doing, the Federal Circuit spoke to the test to
determine “whether a vehicle is principally designed
for a particular purpose, not uniquely designed for a
particular purpose,” by looking “at both the structural
and auxiliary design features, as neither by itself are
determinative.” Id. at 535.
Unlike the instant dispute, however, Marubeni did
not involve post-importation processing of the subject

67a
merchandise, concomitant allegations of resort to
disguise or artifice to evade higher duties, see Def.’s
XMSJ at 20–23; Def.’s Corrected Reply Mem. of Law
in Opp’n to Pl.’s Mot. for Summ. J. and in Further
Supp. of Def.’s Cross–Mot. for Summ. J. (“Def.’s
Reply”) at 6, 7–9, ECF No. 93–1 (condition of the
Transit Connect 6/7s at the time of importation “was a
ruse to fool CBP into believing that the vehicles were
‘principally designed for the transport of persons’”), or
competing claims of legitimate tariff engineering, Pl.’s
MSJ at 32–36; Confidential Mem. of P & A in Opp’n to
Def.’s Cross–Mot. for Summ. J. and Reply in Supp. of
Pl.’s Mot. for Summ. J. (“Pl.’s Reply”) at 10–15, ECF
No. 97. Accordingly, the court first discusses the relevance of those legal principles to the test set forth in
Marubeni, before turning to its Marubeni analysis.
44

It is a well-settled tenet of customs law that “[i]n
order to produce uniformity in the imposition of duties,
the dutiable classification of articles imported must be
ascertained by an examination of the imported article
itself, in the condition in which it is imported.”
Worthington v. Robbins, 139 U.S. 337, 341, 11 S.Ct.
581, 35 L.Ed. 181 (1891). In 1881, the U.S. Supreme
Court affirmed the principle that a manufacturer may
purposely manufacture goods in such manner as to
evade higher duties. Merritt v. Welsh, 104 U.S. 694,
701–02, 704, 26 L.Ed. 896 (1881) (a case involving
the importation of sugar, which had been darkened
with molasses during its manufacture to escape higher
duties assigned to lighter-colored sugar). According to
the Court, “[s]o long as no deception is practised, so
long as the goods are truly invoiced and freely and
honestly exposed to the officers of customs for their
44

See supra Background Section III.D.

68a
examination, no fraud is committed, no penalty is
incurred.” Id. at 704.
Seeberger v. Farwell, 139 U.S. 608, 11 S.Ct. 650, 35
L.Ed. 297 (1891) is in accord. In Seeberger, the manufacturer produced garments using a mixture of cotton
(6%) and wool (94%) to avoid higher tariffs associated
with pure wool garments. 139 U.S. at 609–10, 11 S.Ct.
650. The Customs Service (then called the “collector”)
determined that the small addition of cotton had not
changed the character of the goods and the plaintiff’s
claim to a lower rate of duty “[w]as an attempt to
defraud the revenue.” Id at 610–11, 11 S.Ct. 650. The
trial court disagreed, and the Supreme Court concurred, finding that the manufacturer “had the right
to . . . manufacture the goods with only a small
percentage of cotton, for the purpose of making them
dutiable at the lower rate.” Id. at 611, 11 S.Ct. 650.
Merritt and Seeberger involved permanent alterations
to the composition of their respective merchandise;
neither case addressed, as occurred here, post-importation alterations to the subject merchandise. In Citroen,
however, the Supreme Court did not regard the pre- or
post-importation condition of the subject import as
material to the classification analysis. United States v.
Citroen, 223 U.S. 407, 32 S.Ct. 259, 56 L.Ed. 486
(1912). Citroen concerned the importation from France
of 37 unset and unstrung pearls, divided into five
separate lots. Id. at 413, 32 S.Ct. 259. Prior to importation, the pearls had been strung and worn as a
necklace by their eventual owner. Id. at 413–14, 32
S.Ct. 259. After importation into the United States
and delivery to the owner, the pearls were strung to
“form[ ] the necklace she desired.” Id. at 414, 32 S.Ct.
259. The Customs Service had classified the pearls

69a
under the provision for “pearls set or strung,” and the
importer appealed. Id. at 413, 32 S.Ct. 259.
The Court discussed, and dismissed, the idea that
the pre-importation stringing of the pearls or any postimportation plan to string the pearls into a necklace
determined the correct classification. See id. at 415–
16, 32 S.Ct. 259 (“Had these pearls never been strung
before importation, no one would be heard to argue
that they fell directly within the description of paragraph 434 [applicable to set or strung pearls] because
they could be strung, or had been collected for the
purpose of stringing or of being worn as a necklace.”))
(emphasis added); Id. at 416, 32 S.Ct. 259 (“Nor can it
be said that pearls, imported unstrung, are brought
within the description of paragraph 434 because, at
some time, or from time to time, previous to importation, they have been put on a string temporarily for
purposes of display.”). The Citroen Court created a
bright line test for classification cases: “[d]oes the
article, as imported, fall within the description sought
to be applied?” Id. at 415, 32 S.Ct. 259 (emphasis
added).
It is also well settled, however, that articles cannot
escape a prescribed rate of duty “by resort to disguise
or artifice.” Id. at 415, 32 S.Ct. 259. In other words,
when the article is described by a particular tariff
provision at the time of importation, “an effort to make
it appear otherwise is simply a fraud on the revenue,
and cannot be permitted to succeed.” Id. at 415, 32
S.Ct. 259 (emphasis added) (citing Falk v. Robertson,
137 U.S. 225, 232, 11 S.Ct. 41, 34 L.Ed. 645 (1890) (a
case involving the importation of high quality tobacco
hidden in a bale of inferior quality tobacco, in which
the importer had tried to classify the entire bale under
the provision applicable to the inferior tobacco)). In

70a
contrast, the purposeful manufacture or preparation
of an article to avoid higher tariffs is not disguise or
artifice; rather, that is legitimate tariff engineering.
See id. at 415, 32 S.Ct. 259 (“But when the article
imported is not the article described as dutiable at a
specified rate, it does not become dutiable [at that
rate] because it has been manufactured or prepared
for the express purpose of being imported at a lower
rate.”) (citing Merritt, 104 U.S at 704, Seeberger, 139
U.S. at 611, 11 S.Ct. 650); HQ H220856 at 11 (defining
legitimate tariff engineering).
The CIT has previously addressed competing claims
of legitimate tariff engineering and disguise or artifice
in a case involving post-importation processing.
See Heartland By–Products, Inc. v. United States
(“Heartland I”), 23 CIT 754, 74 F.Supp.2d 1324 (1999),
rev’d, 264 F.3d 1126 (Fed. Cir. 2001) (“Heartland II”).
Heartland I concerned the correct classification of
sugar syrup to which molasses was added during
manufacturing and then extracted after importation.
Heartland I, 23 CIT at 756, 74 F.Supp.2d at 1328. The
plaintiff, Heartland By–Products, Inc. (“Heartland”),
claimed classification under subheading 1702.90.40 of
the HTSUS, which covers “sugar syrups . . . containing
soluble non-sugar solids [excluding foreign substances]
greater than 6 percent by weight of the total soluble
solids,” and which was not subject to the relevant tariff
rate quota,45 Id. at 760, 74 F.Supp.2d at 1332, “because
[the product] contain[ed] more than 6% by weight of
soluble, non-sugar solids with no foreign substances,”
Heartland II, 264 F.3d at 1129. Customs initially
agreed. Heartland I, 23 CIT at 755, 74 F.Supp.2d at
45

“[T]he volume of sugar imported into the United States is
controlled by a Tariff Rate Quota.” Heartland II, 264 F.3d at 1128
(citing Additional U.S. Notes to Chapter 17 (2000)).

71a
1327 (citation omitted). However, the domestic sugar
industry filed a petition seeking reclassification of the
subject merchandise, arguing, inter alia, that classification under subheading 1702.90.40 “defeated the
purpose of the 6% solids content provision of 1702.90.20
HTSUS[, which] . . . . was adopted to ensure that sugar
syrups containing less than 6% non-sugar solids would
be subject to the TRQ because such syrups compete
directly with sugar.” Heartland II, 264 F.3d at 1130.
Pursuant to that petition, Customs determined that
the molasses constituted a “foreign substance” and
should be disregarded in determining the amount of
soluble non-sugar solids in the syrup. Heartland I, 23
CIT at 762, 74 F.Supp.2d at 1333 (citation omitted);
Heartland II, 264 F.3d at 1131. Customs also determined that the addition of molasses was not a
“genuine step” in the process of manufacturing the
sugar syrup, and, thus, its inclusion constituted
disguise or artifice. Heartland I, 23 CIT at 767–69, 74
F.Supp.2d at 1337–38 (citation omitted); Heartland II,
264 F.3d at 1131 (citation omitted). Accordingly,
Customs revoked its prior ruling, Heartland I, 23
CIT at 756, 74 F.Supp.2d at 1329, and classified
Heartland’s sugar under subheading 1702.90.10/20,
Heartland II, 264 F.3d at 1131–32 (citation omitted).46
On appeal from Customs’ revocation, the CIT concluded that molasses is not a foreign substance
because it is “composed of the same chemical ingredients” as raw sugar and the subject sugar syrup, but in
different proportions. Heartland I, 23 CIT at 762–64,
46

Subheading 1702.90.10/20 covers sugar syrups with nonsugar solids in an amount equal to or less than 6% soluble nonsugar solids. Heartland I, 23 CIT at 762, 74 F.Supp.2d 1324;
Subheading 1702.90.10/20, HTSUS.

72a
74 F.Supp.2d at 1333–35. The CIT also disagreed with
Customs’ finding that the addition of molasses was
not a genuine step in the manufacturing process. Id.
at 767–69, 773, 74 F.Supp.2d at 1338–39, 1342 (“The
record evidence indicates and does not contradict that
combining raw sugar with molasses is a legitimate
step in the refining process.”). According to the CIT,
Merritt and its progeny “have accepted artificial steps
in the manufacturing process done to obtain the lowest
rate of duty.” Id. at 771, 74 F.Supp.2d at 1341 (“[T]he
motive of the importer in fashioning his or her
merchandise is simply not a relevant inquiry. In fact,
to the extent motive is relevant, an importer who
intends to fashion merchandise solely for the purpose
of obtaining the lowest rate of duty is within his or her
legal right.”). Moreover, following Worthington and
subsequent cases standing for the proposition that
classification is determined based upon the condition
of the article at the time of importation, the court
faulted Customs for considering post-importation use
of the syrup in its revocation decision. Id. at 772–73,
74 F.Supp.2d at 1341–42 (“Plaintiff’s operation falls
directly within the line of cases which hold that an
importer has the right to stop production at the most
favorable time for duty purposes.”).
The Federal Circuit reversed the CIT on the basis
that Customs’ determination that the term “foreign
substances” in subheading 1702.90.10/20 included the
molasses Heartland had added to its sugar syrup
merited Skidmore deference. Heartland II, 264 F.3d at
1134. The majority opinion declined to address the
parties’ arguments concerning the materiality, if any,
of the syrup’s post-importation processing to the
classification analysis. See id. at 1134 (declining to
address other arguments raised in the appeal). Those
arguments were addressed by Senior Circuit Judge

73a
Friedman, who wrote a separate concurring opinion.
Id. at 1137–39 (Friedman, J., concurring).
The concurrence opined that record evidence
supported Customs’ factual finding that the molasses
was “added to the sugar in this case to achieve a
desired level of soluble non-sugar solids for the avoidance of quota,” and its conclusion that the importation
of the sugar syrup with molasses was disguise or
artifice. Id. at 1138–39 (Friedman, J., concurring) (citation
omitted). According to the concurrence, because
the addition and removal of the molasses from the
sugar served no manufacturing or commercial
purpose, the conclusion is irresistible that the
only purpose of this strange arrangement was to
create a fictitious product that, because of the
temporary presence of the molasses, qualified for
the lower rate of duty on sugar imports containing
specified amounts of non-sugar solids.
Id. at 1138 (Friedman, J., concurring).
Though recognizing that concurring opinions are not
binding on this court, Parties to the instant litigation
dispute the application of Judge Friedman’s concurrence to this case and the correctness of CBP’s reliance
on the concurrence in the underlying ruling. See Pl.’s
MSJ at 32–33; Pl.’s Reply at 11; Def.’s XMSJ at 21–23;
see also HQ H220856 at 11–13. Plaintiff distinguishes
the Heartland II concurrence on the basis that, in that
case, the sugar syrup “was not a real product in its
condition as imported because there was no market for
molasses-impregnated sugar,” whereas here, “there is
a very real market for passenger vans.” Pl.’s MSJ at
33. Defendant contends the Heartland II concurrence
squarely applies: “[a]s in Heartland, Ford’s program
constitutes a disguise or artifice by creating a fictitious

74a
product to obtain a lower duty rate.” Def.’s XMSJ at
22–23 (arguing that “[b]y Ford’s own design, [the
Transit Connect 6/7] with rear seating is a fiction”
because it cannot be ordered by or sold to a customer
and, thus, “is not a commercial reality”).
The court finds that neither party’s respective
position on, nor Customs’ analysis of, the Heartland
concurrence is persuasive. For several reasons, however,
the court declines to adopt the view espoused in the
concurrence.
First, the concurring opinion’s focus on the purported
lack of “manufacturing or commercial purpose” to the
addition and removal of the molasses, Heartland II,
264 F.3d at 1138, appears, to the court, to run counter
to the Supreme Court’s view that “a manufacturer
[has the] right to make [its] goods as [it] pleases,”
Merritt, 104 U.S at 701. Second, calling upon CBP to
examine the purpose and genuineness of steps in the
manufacturing process as part of its classification
process would impair the timely and sound administration of the customs laws. See id., 104 U.S at 702
(“Uncertainty and ambiguity are the bane of commerce.
Discretion in the custom-house officer should be
limited as strictly as possible.”); Citroen, 223 US at
414–15, 32 S.Ct. 259 (uniform imposition of duties
depends upon classification of the article based on its
condition at importation).47 Finally, the Supreme
47

United States v. Irwin, 78 F. 799, 801 (2d Cir. 1897) is in
accord with the view “that intent is not an element in determining the proper classification of imported articles, and that
merchants are at liberty so to manufacture and so to import their
goods as to subject them to the lowest possible duties under the
tariff laws.” There, however, the Second Circuit held that
gunstocks and barrels imported together, on the same ship for the
same importer, and claimed to be dutiable as parts, were instead

75a
Court’s guidance on disguise or artifice emphasizes
changes to the appearance, not the physical characteristics, of the article. See Citroen, 223 U.S. at 415, 32
S.Ct. 259 (when the article is described by a particular
tariff provision at the time of importation, “an effort to
make it appear otherwise is simply a fraud on the
revenue, and cannot be permitted to succeed”) (emphasis
added). Cf. Merritt, 104 U.S. at 704 (“honest[ ]
expos[ure]” of the goods to the customs officers may
preclude a finding of fraud). This guidance makes
sense in light of the general rule that a manufacturer
has the right to make its goods as it chooses. See id.,
104 U.S. at 701. Parsing manufacturing steps and the
reasons behind those steps in an effort to uncover
disguise or artifice threatens to turn the concept of
legitimate tariff engineering on its head. Unsurprisingly,
therefore, the few cases finding disguise or artifice
involve post-manufacture, pre-importation efforts to
to be assessed duties “as a whole.” Irwin, 78 F. at 802. The court
distinguished the Supreme Court’s decision in United States v.
Schoverling, 146 U.S. 76, 13 S.Ct. 24, 36 L.Ed. 893 (1892). Id.
at 802–03. In Schoverling, an importer entered gunstocks and
separately arranged with another importer to enter the barrels
necessary to make a complete gun, thereby seeking to avoid the
higher duties payable on finished guns. 146 U.S. at 78–79, 13
S.Ct. 24. The Customs Service classified the gunstocks under the
provision for completed shotguns. Id. at 78, 13 S.Ct. 24. In
holding for the importer, the Court cited Merritt for the
proposition that “the intent of the importers to put the gunstocks
with barrels separately imported, so as to make here completed
guns for sale, cannot affect the rate of duty on the gunstocks as a
separate importation.” Id. at 81, 13 S.Ct. 24 (citing Merritt, 104
U.S. at 694). The Irwin court distinguished Schoverling on the
basis that the parts were not shipped together or for the same
importer, and there was no evidence the parts had been
assembled prior to importation and subsequently disassembled
for shipping and importation. Irwin, 78 F. at 802–03.

76a
conceal the nature of the imported article. See Falk,
137 U.S. at 231–32, 11 S.Ct. 41 (good quality tobacco
packed with inferior quality tobacco); Irwin, 78 F. at
802–03 (gun stocks and barrels, shipped and imported
together, properly classified as complete guns, not
parts). Cf. Merritt, 104 U.S. at 704–05 (suggesting that
the artificial addition of color to sugar after manufacturing, and “especially after being put up in
packages,” might constitute a “fraud on the revenue”
because the sugar would have a different color from
when it was manufactured). Parties have not supplied,
nor has the court located, any case law tracing disguise
or artifice to the manufacturing process.48
48

Ford cites several Customs rulings for the proposition that
disguise or artifice may be found when “the good in its condition
as imported was not capable of functioning as the thing it
purported to be.” Pl.’s MSJ at 35 (citing HQ 089090 (July 10,
1991) (feather dusters classified as feathers based on use), HQ
076411 (July 31, 1986) (overalls classified as shorts because the
bib was “an usual element having no apparent actual utility [ ]or
commercial reality” when the purchaser would remove and
discard the bib), HQ 073219 (Feb. 29, 1984) (body suit with knit
crotch brief attached by a single yarn classified as separate pieces
because the yarn was removable and Customs determined that
the article was not known in commerce or used as a bodysuit),
and HQ 964222 (July 7, 2002) (dog-eared fence pickets classified
as lumber based on the article’s principal use and Customs’
finding that cutting a dog-ear on the wood boards at issue “is not
a genuine step in manufacturing or producing fence pickets”)).
The principle that Ford extracts from Customs’ rulings,
however, which traces disguise or artifice to the manufacturing
stage, does not appear in Customs’ reasoning for finding disguise
or artifice in those cases. Instead, Customs’ general view is that
disguise or artifice turns on whether the article is a “commercial
reality,” i.e., whether it is “sold or otherwise entered into the
stream of commerce in the condition as imported.” HQ 965751
(Nov. 18, 2002) at 6–7 (discussing Customs’ rulings on disguise or
artifice, including several cited by Ford). The only authoritative

77a
The question the court must now resolve is how the
above-described framework guides the application of
Marubeni to the facts of this case. As previously noted,
determining “whether a vehicle is principally designed
for a particular purpose” requires as assessment of
both “structural and auxiliary design features.”
Marubeni, 35 F.3d at 535. In reviewing the trial court’s
findings, the Federal Circuit noted that the CIT
considered “design intent and execution” as part of its
analysis of structural and auxiliary design features.
Id. at 536. The Federal Circuit also approved of the
CIT’s evaluation of “marketing and engineering design
goals (consumer demands, off the line parts availability, etc.).” Id. at 536 (“It is evident that the CIT
carefully applied the proper standards . . . .”).
The task that confronted the Marubeni trial
court, however, differs from the task before this court.
There, the trial court addressed whether the Nissan
Pathfinder, which “was basically derived from Nissan’s
Hardbody truck line,” but which “was based upon
totally different design concepts,” reflected sufficient
changes from the Hardbody truck so as to be classified
as a passenger vehicle and not as a truck. Id. at 536.
Thus, in the context of that case, the trial court
“correctly pointed out [those] differences and, more
importantly, the reasons behind the design decisions.”
Id. at 536 (design decisions noted by the CIT included,
for example, “the need for speed and economy in
manufacturing to capture the changing market”).
support Customs cites for its view is the Heartland II concurrence, which it notes simply agreed with Customs’ conclusion that
Heartland’s actions did not constitute legitimate tariff engineering. HQ 965751 at 6. As discussed, however, the concurrence does
not persuade the court that an article’s “commercial reality” is an
appropriate framework for determining disguise or artifice.

78a
The task before this court is to determine whether
the MY2012 Transit Connect 6/7s imported with the
CRSV–2 installed at the time of importation but later
removed is “principally designed for the transport of
persons.” The court must perform that analysis
against the backdrop of Parties’ arguments concerning
whether or to what extent Ford’s post-importation
processing (or rather, its pre-importation intent to
perform post-importation processing) informs that
analysis. Thus, the court must tread carefully in it s
consideration of design intent or purpose so as to not
run afoul of centuries-old case law on legitimate tariff
engineering that permits manufacturing with the
intent to minimize customs duties. See, e.g., Citroen at
415, 32 S.Ct. 259.49
The United States interprets Marubeni as requiring
inquiry into a vehicle’s “intended purpose, i.e., what
the vehicle is used for.” Def.’s XMSJ at 20; Def.’s Reply
at 5–6, 15. For that reason, Defendant contends,
“ephemeral features whose reason for existence is to
fool CBP as to a vehicle’s true nature and intended
purpose should be disregarded.” Def.’s XMSJ at 20.
Defendant argues that the subject imports are “cargo
49

Defendant contends that certain Supreme Court opinions
concerning legitimate tariff engineering are inapposite because
the tariff provisions at issue in those cases did not “implicate[ ]
the principal design of the good.” Def.’s Reply at 15–16 (citing,
inter alia, Citroen, Worthington, and Schoverling). According to
Defendant, Ford’s reliance on those cases constitutes an unavailing “compar[ison of] apples to oranges” because “Marubeni
provides the proper interpretation of the actual headings at issue
here.” Id. at 17. Defendant is incorrect. That Marubeni provides
the framework for determining whether the subject imports are
properly classified under heading 8703 or 8704 does not give this
court license to ignore additional sources of binding case law
informing the analysis.

79a
van[s] from birth,” and do not actually undergo a
conversion process because the features removed during
post-importation processing exist only for the purpose
of classification. Id. at 18 (pointing to the fact that
Transit Connect 6/7s are offered, ordered, and sold
without the second row seat, the VIN numbers reflect
that they are cargo vans, and the GVWR reflects twopassenger seating). According to Defendant, because
“[t]he temporary ‘chicken tax’ features exist only” to
obtain favorable classification and not for the purpose
of transporting persons, Ford’s “‘chicken tax’ scheme”
constitutes disguise or artifice. Id. at 21; Def.’s Reply
at 9.
Ford emphasizes Marubeni’s discussion of design
features, Pl.’s MSJ at 27, and contends that “purpose”
is determined by considering “a vehicle’s physical
features at the point of importation, not subjective
intent, post-importation processing, or actual use.”
Pl.’s Reply at 5. Ford contends that Defendant’s
disregard of “features that are not consistent with how
goods are used or sold . . . merely walks ‘intent’ and
‘actual use’ in through the back door.” Id. at 11.
Defendant goes to great lengths to contend—
paradoxically—that conducting the Marubeni test
based on the condition of the Transit Connect 6/7s at
the time of importation must account for post-importation processing and Ford’s reasons for so doing. Def.’s
Reply at 5 (an article’s “condition as imported” is
not necessarily “based solely on observable physical
characteristics”); Id. at 5–6 (Marubeni’s “intended purpose” language speaks to “the reason why something
is done or used,” which includes Ford’s purported
reasons for installing and removing the rear seats).
But the Federal Circuit in Marubeni did not refer to
the manufacturer’s “intended purpose” in designing a

80a
vehicle in a particular way, but to the “vehicle’s
intended purpose of transporting persons” as compared to an “intended purpose of transporting goods.”
Marubeni, 35 F.3d at 535 (emphasis added). The court
goes on to state that the vehicle’s preeminent “intended
purpose” is determined from an examination of the
vehicle’s structural and auxiliary design features. Id.
at 535. Although the court approved of the CIT’s
consideration of Nissan’s “reasons behind [certain]
design decisions,” it did not state that the CIT must,
in all cases, consider the manufacturer’s intent as part
of the analysis. See id. at 536. When, as here, the
relevant intent is the intent to avoid higher duties, the
court is bound to follow the Supreme Court’s view that
such intent is immaterial to an article’s classification.
See, e.g., Citroen, 223 U.S. at 415, 32 S.Ct. 259.
Additionally, Defendant’s argument attempts to
trace disguise or artifice to the pre-importation
manufacturing process. Def.’s Reply at 9 (“By adding
the ‘chicken-tax’ seat and windows . . . , Ford has
attempted to use a disguise to make the subject
merchandise appear to be something that it is not.”).
Similarly, Defendant’s focus on the Transit Connect
6/7s apparent lack of “commercial reality” as a vehicle
with a second row seat, Def.’s XMSJ at 23; Def.’s Reply
at 11 n.6, seeks to focus the court on events that occur
post-importation. In essence, Defendant urges the
court to concentrate on any time other than the time
of importation. But the well-settled “time of importation” rule, applied with Supreme Court guidance on
the difference between disguise or artifice and legitimate tariff engineering, disfavors Defendant’s approach.
See supra pp. 33–37. Moreover, Ford has not
“disguised” anything. Rather, it manufactured a costreduced second row seat for the purpose of obtaining
the significantly lower (one-tenth) tariff rate assigned

81a
to passenger vehicles in the most economical manner.
Joint Suppl. ¶¶ 29, 39, 41, 86.50 That Ford ultimately
removes that seat after importation is immaterial;51
what matters is whether, at the time of importation,
the subject vehicles were “designed ‘more’ for the
transport of persons than goods.” Marubeni, 35 F.3d at
534. To make that determination, the court turns to
its consideration of the vehicle’s structural and

50

Defendant contends, without supporting authority, that the
strictness of the “principally designed” test attendant to classification under heading 8703 as compared to the broader “for the
transport of goods” requirement under heading 8704 compels “the
conclusion that Congress did not want importers to easily avoid
the 25[%] ad valorem rate of [h]eading 8704.” Def.’s Reply at 8
n.5. Regardless of the truth of Defendant’s contention, the court’s
focus on structural and auxiliary design features present at the
time of importation does not weaken the classification analysis;
rather, it applies Marubeni consistently with well-settled binding
case law that an article is classified based upon its condition at
the time of importation. See Worthington, 139 U.S at 341, 11 S.Ct.
581; Citroen, 223 U.S. at 415, 32 S.Ct. 259.
51

To the extent Defendant contends that Ford’s intent to
remove the CRSV–2 is material, see Def.’s XMSJ at 21 (“Ford is
asking the Court to draw the illogical conclusion that a vehicle
that cannot be ordered or purchased with rear seating and whose
marketing speaks in terms of cargo capacity and capability can
have an intended purpose of transporting persons that outweighs
the purpose of transporting goods.”), that intent must be weighed
against Ford’s undisputed intent to create a vehicle, and costreduced rear seat, that meets U.S. federal safety standards, see
Pl.’s Facts ¶ 27; Def.’s Resp. to Pl.’s Facts ¶ 27; Pl.’s Facts ¶ 28;
Def.’s Resp. to Pl.’s Facts ¶ 28; Pl.’s Facts ¶ 29; Def.’s Resp. to
Pl.’s Facts ¶ 29; Joint Suppl. ¶¶ 22, 41, 86, 87. However, such
subjective balancing of subjective intentions (by the court or CBP)
demonstrates the folly of the endeavor and its capacity to
undermine the uniform administration of the customs laws. See
Worthington, 139 U.S at 341, 11 S.Ct. 581; Merritt, 104 U.S at
702.

82a
auxiliary design features present at the time of
importation. Id. at 535.
IV. Marubeni Analysis
The Marubeni court derived its structural/auxiliary
design features analysis from a March 1, 1989, Customs
memorandum providing guidance on applying headings 8703 and 8704 to sport utility vehicles. Marubeni,
35 F.3d at 534. Pursuant to Customs’ memorandum,
structural design features include a vehicle’s “basic
body, chassis, [ ] suspension design, . . . [and] style and
structure of the body [control access to rear].” Id. at
534 (first and third alterations added). The memorandum did not enumerate certain auxiliary design
features, but noted their relevance to the determination. Id. at 534.
Applying that guidance, the Marubeni court
reviewed the CIT’s findings regarding relevant
structural and auxiliary differences between the
Hardbody truck and the Pathfinder. As to structural
features, the court focused on the Pathfinder’s side
rails, front cab design, front and rear suspension,
relocation of the gas tank and spare tire to
accommodate the rear passenger seat, which reduced
cargo space, and cross beams, which were added to
accommodate other changes. Id. at 536. Additionally,
other design features that pointed to a principal
design for passengers included: “the spare tire and the
rear seat when folded down intrude upon the cargo
space; the cargo area is carpeted; [and] a separate
window opening in the pop-up tailgate accommodates
passengers loading and unloading small packages
without having to lower the tailgate.” Id. The court
noted only “minor” differences between the Hardbody
truck and the Pathfinder with respect to the axles and
wheels, which was “consistent with the Pathfinder’s

83a
off-road mission, particularly in the loaded condition.”
Id. at 537. Finally, the court noted that [t]he
Pathfinder has the same engine size as the Maxima
passenger car.” Id.
For its auxiliary design analysis, the Marubeni
court emphasized Nissan’s lowering of the vehicle’s
height, improved seat slides, reclining and comfortable
rear seats that fold “fairly flat” to make a “cargo bed
but are not removable,” and “rear seat stereo outlets,
ashtrays, cubbyholes, arm rests, handholds, footwells,
seat belts, child seat tie down hooks and operable
windows.” Id.
After the Federal Circuit decided Marubeni, the
United States proposed amending the Explanatory
Notes (“EN”) to heading 8703 to enumerate certain
design features characteristic of vehicles classifiable
under that heading. See Pl.’s Ex. 6 at T–0257–T–0259,
ECF No. 96–3 (World Customs Org., Harmonized Sys.
Comm., Study With a View to Establishing Guidelines
for the Classification of Vehicles of Headings 87.02,
87.03, and 87.04 (NC0304E1, Sept. 26, 2000)). As
amended, EN 87.03 provides insight into the correct
classification of “multipurpose” motor vehicles that
may be used to transport persons and goods, including
“van-type vehicles.” EN 87.03. Design features pointing
to classification under heading 8703 include the:
(a) Presence of permanent seats with safety
equipment (e.g., safety seat belts or anchor points
and fittings for installing safety seat belts) for
each person or the presence of permanent anchor
points and fittings for installing seats and safety
equipment in the rear area behind the area for the
driver and front passengers; such seats may be
fixed, fold-away, removable from anchor points or
collapsible;

84a
(b) Presence of rear windows along the two side
panels;
(c) Presence of sliding, swing-out or lift-up door or
doors, with windows, on the side panels or in the
rear;
(d) Absence of a permanent panel or barrier
between the area for the driver and front passengers and the rear area that may be used for the
transport of both persons and goods; [and the]
(e) Presence of comfort features and interior
finish and fittings throughout the vehicle interior
that are associated with the passenger areas of
vehicles (e.g., floor carpeting, ventilation, interior
lighting, ashtrays).
EN 87.03. While not binding, the ENs may provide
interpretative guidance in a classification analysis.
Lynteq, 976 F.2d at 699.52
In this case,53 the Transit Connect 6/7s share certain
structural features with the Transit Connect 9, which
is delivered to the customer with its rear seat in place
52

Defendant disputes the appropriateness of looking to the
ENs for guidance. Def.’s Reply at 13–14; id. at 14 (“Resort to the
ENs is not necessary here because binding Federal Circuit
authority has provided the proper interpretation of Heading
8703.”). To be sure, the court considers the ENs as guidance
insofar as they are relevant and consistent with binding law.
Because Marubeni discussed structural and auxiliary design
features pertinent to the vehicles at issue in that case, EN 87.03
furnishes general criteria that aid the court’s application of the
Marubeni test to the facts of this case.
53

The material facts upon which the court relies in its
discussion are stated above. See supra Background Section III.B–
C. For ease of reading, the court’s analysis omits citations to
Parties’ statements of facts.

85a
and which was not reclassified under heading 8704.
Those structural features include engine size and type,
steel unibody construction, interior volume and rear
space from floor to ceiling, front-wheel drive, underbody bracing, permanent bracing in the side pillars of
the car body, Macpherson strut front suspension, and
ground clearance. Moreover, all Transit Connects
share the same chassis and drivetrain as the Ford
Focus passenger vehicle. Cf. Marubeni, 35 F.3d at 534
(citing Customs’ March 1, 1989 memorandum, which
emphasized suspension design, body type, and chassis
as part of a vehicle’s structural design). Additional
features that point to classification under heading
8703 include the Transit Connect 6/7s second row
sliding doors with windows and swing-out rear doors
and the absence of a panel or barrier between the first
and second row seats. See EN 87.03.
According to Defendant, features that disfavor
classification under heading 8703 include the Transit
Connect 6/7s GVWR of 5005 pounds, as compared to
the Transit Connect 9’s 4965 pound GVWR, and the
presence of the number 6 or 7 in the Transit Connect
6/7s VIN, which designates the vehicles as subject to
post-importation removal of the rear seat. See Def.’s
XMSJ at 18 (contending the Transit Connect 6/7s are
“cargo van[s] from birth”). Neither feature weighs
heavily in the analysis, however. EN 87.03 contemplates motor vehicles with a GVWR of less than five
tonnes, which describes the Transit Connect 6/7s. See
EN 87.03 (“These features are especially helpful in
determining the classification of motor vehicles which
generally have a gross vehicle weight rating of less
than 5 tonnes . . . .”). The presence of the 6 or 7 in the
Transit Connect 6/7’s VIN merely reflects Ford’s
intent to alter the subject merchandise after obtaining

86a
favorable tariff treatment, which, as discussed
above,54 is immaterial to the classification analysis.
In sum, the Transit Connect 6/7’s structural
similarity to the Transit Connect 9 passenger wagon
and its consistency with relevant parts of EN 87.03
favor a finding that it is principally designed for the
transport of persons. Such a finding is supported by an
examination of the subject merchandise’s auxiliary
design features, including the cost-reduced rear seat.
Plaintiff contends that the Transit Connect 6/7s’
cost-reduced rear seat satisfies the Marubeni test
merely because it is included at the time of importation. See Pl.’s MSJ at 27–29 (including the rear seat in
an auxiliary design list with ground clearance,
footwells, dome lighting, seatbelts and child safety
features, a cupholder, map pocket, and coat hooks).
Defendant responds that the Transit Connect 6/7s’
cost-reduced rear seat was never intended to remain
in the vehicle, and points to its cost-reduced characteristics as evidence that the seat does not meet the
Marubeni test. See Def.’s XMSJ at 18, 24. Contrary to
Parties’ respective positions, however, neither the
seat’s mere presence nor its removal is dispositive.55
54
55

See supra Discussion Section III.

Presumably in reference to Ford’s post-importation processing, Defendant contends the subject merchandise lacks the
non-removable rear seats included in the Marubeni court’s list of
auxiliary design features. Def.’s XMSJ at 24; see also Marubeni
at 537. Reading Marubeni in context, however, demonstrates that
the court was referring to seats that the Pathfinder’s eventual
owner could not remove. See Marubeni, 35 F.3d at 537 (“Other
auxiliary design features that point to transport of passengers
include: rear seats that recline, are comfortable, and fold to make
a fairly flat cargo bed but are not removable.”). The relevant
sentence does not speak to a manufacturer’s post-importation
removal of the seats. Moreover, EN 87.03 suggests that the

87a
Instead, the court must determine whether the characteristics of the CRSV–2 indicate a principal design
for the transport of persons.56
The CRSV–2 consists of a seatback frame and
cushion frame; it does not contain a headrest, which
was removed in the creation of the CRSV–1. The
seatback frame contains seatbelts for every seated
position, and a seatbelt retractor mount and shoulder
guide that are built to withstand a collision. The
seatback and seat cushion consist of high density
polyurethane foam, and are contoured on the passenger side for lumbar and lateral support. The cushion is
held in place by the frame contours, cushion, seatback
presence of anchor points and fittings for installing seats, which
may be removable, is a sufficient indicator of a principal design
for the transport of persons. EN 87.03 is not inconsistent with
Marubeni because Marubeni does not require permanent seats;
rather, it noted the presence of a non-removable seat in the
Pathfinder as one feature that pointed to the transport of persons.
Here, there are no facts suggesting that the CRSV–2 could be
easily removed by a lay customer. Even after post-importation
processing, the Transit Connect 6/7 retains anchor holes for the
second row seat, although they are plugged and not readily
accessible. Because this refers to the condition of the Transit
Connect 6/7 after post-importation processing, the court simply
notes this fact, without reliance.
56

The court discusses the rear seat’s features in the context of
Ford’s cost reduction efforts that resulted in the CRSV–2. Although
a finding that the CRSV–2 supports classification under heading
8703 would imply the same with regard to the CRSV–1 and the
rear seat installed in the MY2010 Transit Connect 6/7 (which is
the same as the rear seat installed in the MY2012 Transit
Connect 9), the court is mindful that vehicles with those seats
installed are not at issue in this litigation. Thus, the court’s
ultimate conclusion on the correct classification of the MY2012
Transit Connect 6/7 is not a conclusion on the correct classification of any other vehicle.

88a
wires, and cover. The cushion frame includes the
LATCH system, which enables a LATCH-equipped
child car seat to be fitted to the seat.
The entire seat is wrapped in a cost-reduced fireresistant grey woven cover that does not match the
flame retardant fabric covering the front seat. The
CRSV–2 also lacks fabric mesh covering the rear seat
bottom and black paint that had previously covered
the exposed metal portions of the seat frame. However,
as Ford contends, tariff classification under heading
8703 depends less on the luxuriousness of the
amenities than the degree to which their functionality
reflects a principal design for transporting persons.
Pl.’s MSJ at 28 (quoting Pomeroy Collection, Ltd. v.
United States, 32 CIT 526, 544, n. 20, 559 F.Supp.2d
1374, 1392, n. 20 (2008) (“An automobile’s tariff
classification does not differ depending on whether it
is a stripped-down model designed solely as basic
transportation or a high-end luxury sedan supplied
with every conceivable option and amenity.”) (citing
heading 8703 for the purpose of comparing it to
heading 9405, which covered the lamps at issue in that
case regardless of the degree of ornamentation)).
There is no indication that the grey woven cover or
other cosmetic changes, including the removal of the
backrest reinforcement pad, diminish the seat’s utility
as a seat.
The seatback frame has pivot brackets enabling it to
fold forward; however, the torsion bar assembly and
mounts, and associated seatback wire, which secure
the seatback when folded against the seat cushion,
were removed at the CRSV–1 stage. The tumble lock
mechanism, which held the entire seat in place when
it was folded against the front seat, was also removed.
Because the torsion bar assembly and tumble lock

89a
mechanism made it easier to transport goods by
securing the seat when the vehicle was being used to
transport cargo instead of passengers, the removal of
those items does not diminish the seat’s ability to
transport passengers.57
The seatback frame contains three seatback wires.
Seatback wires provide lumbar support, passenger
comfort, support for cargo when folded flat, and
support for the seat foam and fabric. The MY2010
Transit Connect 6/7 seatback contained seven seatback wires; four were removed in the creation of the
CRSV–2.58 There is no evidence that the remaining
three wires provided insufficient support. Ford did not
conduct consumer testing on the CRSV–2; however, it
used physical testing and engineering judgment to
determine whether the CRSV–2 (in particular, the
removal of the seatback wires and use of different
fabric) required additional testing to confirm FMVSS
compliance. On that score, H–Point testing did not
demonstrate any change to the point where the femur
pivots in the ball joint on the hip bone; thus, Otosan
engineers concluded that the CRSV–2 was FMVSS
compliant.
The undisputed facts show that the CRSV–2 is still
a seat, albeit a cheaper and, perhaps, less attractive
one. There is nothing about the seat (including the cost
57

In developing the CRSV–2, Ford also removed a small
rubber pad designed to decrease noise and vibration from the rear
seat leg. The fact of the pad’s removal alone, however, without
additional evidence regarding its preventive effect and the degree
of noise and vibration generated by its removal, renders it of little
weight in the analysis.
58

The cushion frame contains seat bottom wires that help to
keep the foam in place and provide support for passengers. None
of those wires were removed.

90a
reduction measures Ford took in designing the CRSV–
2) that convinces the court that this version of the seat
is less relevant to the analysis. The presence of the
LATCH-equipped CRSV–2, taken together with
additional auxiliary design features, including carpeted
footwells in front of the second row seat, child-locks in
the sliding side doors, an optional third cupholder in
the rear of the center console, coat hooks in the second
row, a map pocket attached to the rear of the front
driver seat, and dome lighting throughout the vehicle,
support classification pursuant to heading 8703. Cf.
Marubeni, 35 F.3d at 537 (pointing to rear seats that
accommodate child seats, rear seat belts, and footwells);
EN 87.03 (pointing to carpeting and lighting).
To be sure, certain auxiliary comfort features are
lacking in the subject merchandise. Transit Connect
6/7s have front vents and front speakers, but not rear
vents, speakers, or handholds. The subject imports
also do not have side airbags in the area behind the
front seats or a cargo mat, and the painted metal floor
of the cargo area was left exposed. Cf. Marubeni, 35
F.3d at 536–37 (pointing to rear stereo outlets, rear
handholds, and carpeting of the cargo area). However,
the Transit Connect 9, which Customs did not
reclassify under heading 8704, also lacked rear vents,
armrests, handholds, and side airbags.59 The court
does not find that the absence of those features
changes the outcome here.

59

Although in briefing Defendant disputes the relevance of the
Transit Connect 9 facts, see Def.’s Reply at 13 n.9 (noting the
Transit Connect 9s are not at issue), it was Defendant that
deemed those facts material to the classification analysis, see
Def.’s Facts ¶¶ 27–30.

91a
In sum, the court finds that the Transit Connect
6/7’s structural and auxiliary design features point to
a principal design for the transport of persons.
V. Whether the Transit Connect 6/7’s Use Properly
Informs the Analysis
Parties dispute the propriety of the court’s consideration of the use of the subject merchandise.
Compare Pl.’s MSJ at 36–39 (CBP wrongly considered
use), with Def.’s XMSJ at 27 n.19 (consideration of use
is “integral” to determining classification under heading
8703), and Def.’s Reply at 10–11 (intended use is
relevant to the analysis).
Eo nomine and use provisions are two distinct types
of tariff provisions. GRK II, 761 F.3d at 1361 (Reyna,
J., dissenting).60 Further, there are two types of use
provisions: principal use and actual use, both of
which are governed by the U.S. Additional Rules of
Interpretation (“ARI”). GRK II, 761 F.3d at 1362
(Reyna, J., dissenting); see also ARI 1(a) (principal use
“determined in accordance with the use in the United
States at, or immediately prior to, the date of importation, of goods of that class or kind to which the
imported goods belong”); ARI 1(b) (actual use determined in accordance with the article’s intended use at
the time of importation, the goods must be so used, and
proof thereof furnished within three years from the
date of entry). In a principal use case, courts rely on
the Carborundum factors to determine the principal
60

The court cites four cases involving GRK Canada, Ltd: GRK
Can., Ltd. v. United States (“GRK I”), 37 CIT ——, 884 F.Supp.2d
1340 (2013), vacated, 761 F.3d 1354 (Fed. Cir. 2014) (“GRK II”),
reh’g en banc denied, 773 F.3d 1282 (Fed. Cir. 2014) (“GRK III”),
and GRK Can., Ltd. v. United States (“GRK IV”), 40 CIT ——, 180
F.Supp.3d 1260 (2016) (opinion on remand).

92a
use of the subject merchandise.61 Typical use provisions contain the word “use” or “used” in the text of the
subheading. GRK IV, 180 F.Supp.3d at 1267 (footnote
omitted). In contrast, “[a]n eo nomine provision describes
an article by a specific name, not by use, and includes
all forms of the named article.” GRK II, 761 F.3d at
1361–62 (Reyna, J., dissenting).
Ford contends that heading 8703 is an eo nomine
provision. Pl.’s MSJ at 21, 36. Ford further contends
that the Marubeni court did not treat heading 8703 as
a “principal use” provision, and, thus, neither should
this court. See id. at 36–37 & n.8.62 The United States
61

They include:
use in the same manner as merchandise which defines the
class; the general physical characteristics of the merchandise; the economic practicality of so using the import; the
expectation of the ultimate purchasers; the channels of
trade in which the merchandise moves; the environment of
the sale, such as accompanying accessories and the manner
in which the merchandise is advertised and displayed; and
the recognition in the trade of this use.

Aromont USA, Inc. v. United States, 671 F.3d 1310, 1312–13 (Fed.
Cir. 2012) (citing United States v. Carborundum Co., 63 C.C.P.A.
98, 98, 536 F.2d 373, 377 (1976)).
62

Customs’ ruling at issue here does not specify whether it
interprets heading 8703 as an eo nomine provision, see HQ
H220856 at 4, though it has previously done so, see HQ H010587
at 5 (Nov. 4, 2009) (“We note that heading 8703, HTSUS, is [ ] an
eo nomine provision.”). Customs cited Marubeni as supplying the
proper test for determining whether heading 8703 covers the
subject merchandise. HQ H220856 at 4. In contrast, Customs
concluded that heading 8704 is a principal use provision governed
by ARI 1(a) and the Carborundum factors. Id. at 5. CBP then
appears to import the principal use analysis relevant to heading
8704 into its consideration of whether the subject merchandise
falls within heading 8703. See id. (stating that, “[p]ursuant to . . .
Marubeni as well as [ARI] 1(a) and [EN] 87.03, a vehicle of

93a
contends that “[h]eading 8703 is not similarly constructed” to other eo nomine provisions that describe
articles by name because “the words ‘principally designed
for the transport of persons’ changes its complexion to
one that is purpose-driven.” Def.’s Reply at 10.
Defendant proffers, without authoritative support or
explanation, that heading 8703 “might best be described
as a hybrid” provision. Id. at 10.
The court is bound by the Federal Circuit’s legal
determinations as to questions of law, and specifically
as to its interpretation of tariff terms. Avenues in
Leather, Inc. v. United States, 423 F.3d 1326, 1331
(Fed. Cir. 2005). Marubeni did not treat heading 8703
as an actual use provision or a principal use provision
requiring consideration of the Carborundum factors.
Though the Marubeni court did not expressly conclude
that heading 8703 is an eo nomine provision, the
court treated it like a typical eo nomine provision by
defining the relevant terms and then examining the
Pathfinder’s physical characteristics to determine
heading 8703 [ ] must be designed ‘more’ for the transport of
persons than goods”); id. at 7 (concluding that “[w]hen all
Carborundum factors are considered, the [subject merchandise]
is not principally designed for the transport of persons, but
rather, is a cargo vehicle principally used for the transport of
goods”). CBP also appears to consider the Transit Connect 6/7’s
actual use. See id. at 6 (“[A]s sold and used, the instant vehicles
do not have rear seating or windows”); id. at 8 (“As sold and
actually used, it is undisputed that the vans are cargo vehicles of
heading 8704[.]”). Defendant concedes this is not an “actual use”
case. Def.’s Reply at 20. CBP’s application of a principal use
analysis to a provision it has previously considered eo nomine and
its consideration of actual use vis-à-vis post-importation alterations severely diminishes its persuasive force. See Mead, 533 U.S.
at 220, 121 S.Ct. 2164 (Customs’ rulings “may claim the merit of
its writer’s thoroughness, logic and expertness, its fit with prior
interpretations, and any other sources of weight”).

94a
whether it came within those terms. See Marubeni, 35
F.3d at 534–37; see also GRK III, 773 F.3d at 1284
(Wallach, J., dissenting) (“In an eo nomine analysis,
the court first construes the headings at issue as a
matter of law by enumerating and defining each
named element of the headings; the court then moves
to the second classification step, a factual inquiry, to
determine whether the subject merchandise fulfills
each element of a properly-construed heading.”). The
court is bound by Marubeni’s determination that “the
proper meaning of ‘motor vehicle principally designed
for the transport of persons’ [is] just that, a motor
vehicle principally designed for the transport of
persons,” and its determination that structural and
auxiliary design features “must be considered” to
ascertain if the subject merchandise is so designed.
Marubeni, 35 F.3d at 535; Avenues in Leather, 423
F.3d at 1331.
The inquiry could end there. More recently,
however, the Federal Circuit held that use may be an
appropriate consideration when examining classification under eo nomine provisions. See GRK II, 761 F.3d
at 1358–59. But cf. Sigma–Tau HealthScience, Inc.,
838 F.3d at 1277, 1278 (declining to consider the
Carborundum factors when interpreting an eo nomine
provision, and noting that a chapter note determined
under which of two competing provisions the subject
merchandise must be classified). GRK concerned the
correct classification of Plaintiff’s screws. The CIT
determined that Plaintiff’s screws were prima facie
classifiable under multiple tariff provisions describing, respectively, self-tapping and wood screws. GRK
I, 884 F.Supp.2d at 1356. Because the tariff terms
were equally specific, GRI 3(a)’s rule of specificity did
not resolve the issue. Id. The CIT ultimately relied on
GRI 3(c), which provides for classification under the

95a
subheading “which occurs last in numerical order,” to
classify the screws as self-tapping screws. Id. The
Federal Circuit reversed on the basis of the CIT’s
refusal to consider use “at any step of determining the
classification of the subject articles.” GRK II, 761 F.3d
at 1355.
The Federal Circuit concluded that use may be
considered when determining the commercial meaning of a term in an eo nomine provision when the
merchandise named in that provision “inherently
suggests a type of use,” or when determining whether
a particular article “fits within the classification’s
scope.” Id. at 1358–59 (citations omitted). As to the
first inquiry, the court may need to consider ARI 1(a)
or 1(b) depending on whether the tariff terms are
controlled by actual or principal use. Id. at 1359 n.2.
Additionally, the court may need to consider use to the
extent the commercial meaning of the tariff terms
“includes the intended use of articles.” Id. at 1358–59;
see also GRK IV, 180 F.Supp.3d at 1266 (on remand,
observing that “[t]he Court of Appeals did not instruct
the court as to how use affects the meaning of a tariff
term, but its opinion raises two possibilities[:] . . .
either the provision may be controlled by use, or the
physical characteristics of the putative tariff terms
may overlap to the extent that it would be error not to
consider the intended use implicated by each term in
deciding between the possible classifications”). As to
the latter inquiry, the court considers “the subject
article’s physical characteristics, as well as what
features the article has for typical users, how it was
designed and for what objectives, and how it is
marketed.” GRK II, 761 F.3d at 1358 (citing CamelBak
Prods., LLC v. United States, 649 F.3d 1361, 1367–69
(Fed. Cir. 2011), and Casio, Inc. v. United States, 73
F.3d 1095, 1098 (Fed. Cir. 1996)). For several reasons,

96a
the court does not find that an examination of the
Transit Connect 6/7’s use as contemplated by GRK II
is necessary or helpful to arriving at the correct
classification.
First, this is not “a challenging case” in the sense
that the court must cast about for an accurate
definition of the relevant tariff terms; the Federal
Circuit has already supplied the meaning of the
phrase “principally designed for the transport of
persons,” and the court must adhere to its definition.
See Marubeni, 35 F.3d at 535; Avenues in Leather, 423
F.3d at 1331. Cf. GRK I, 884 F.Supp.2d at 1345 (“This
is a challenging case. The HTSUS does not specifically
define the terms ‘other wood screws’ or ‘self-tapping
screws.’”).
Second, heading 8703 is not controlled by use. The
word “use” or “used” does not appear in the heading,
and the heading does not describe the article “by the
manner in which [it] is used.” Len–Ron Mfg. Co. v.
United States, 334 F.3d 1304, 1308 (Fed. Cir. 2003).
Instead, the heading identifies the article according to
its principal design (transport of persons), expressly
names station wagons and racing cars as classifiable
under it, and disaggregates at the subheading level
according to engine size. See Heading 8703, HTSUS.
A heading that does not include the term “use” may
still be controlled by use, however, when the relevant
subheadings depend on use and the chapter, section,
and explanatory notes suggest the heading is controlled by use. See StoreWALL, LLC v. United States,
644 F.3d 1358, 1365 (Fed. Cir. 2011) (Dyk, J., concurring) (a case involving the correct classification of wall
panels), cited in GRK II, 761 F.3d at 1359 n.2; GRK IV,
180 F.Supp.3d at 1267–68 (discussing Store-WALL). In
Store WALL, the concurrence opined that the heading

97a
at issue (covering “unit furniture”) was “unquestionably a use provision” because the controlling chapter
note made classification contingent on whether the
articles were “designed for placing on the floor or
ground,” or, in some instances, “designed to be hung.”
644 F.3d at 1365 (Dyk, J., concurring) (citing Note 2
to Chapter 94, HTSUS) (emphasis omitted). Likewise,
the ENs “state[d] that ‘unit furniture’ must be ‘designed
to be hung, to be fixed to the wall or to stand one on
the other or side by side, for holding various objects or
articles . . .’” Id. at 1365 (Dyk, J., concurring) (quoting
ENs to Chapter 94 (2002)) (emphases omitted). Because
classification under the pertinent subheading “turn[ed]
on the manner of use,” the concurrence undertook a
principal use analysis pursuant to ARI 1(a) to determine whether the subject merchandise was described
therein. Id. at 1366 (Dyk, J., concurring).
Concurring appellate opinions are, of course, not
binding on this court. Moreover, the tariff terms
discussed in StoreWALL are different from those at
issue here. Nonetheless, the court considers the relevance of the concurrence to its interpretation of
heading 8703.
The text of heading 8703 does not suggest that
classification turns on whether the subject merchandise is used to transport persons. Indeed, such a
proposition would be both absurd and overbroad
(given the current need for, at a minimum, one person
to drive the vehicle). Nor does the text suggest that
classification turns on whether the subject merchandise is principally used to transport persons. Though a
principal use of transporting passengers may be
implicated in a vehicle whose principal design is to
transport passengers, “it is not enough for use to be
implicated for a provision to be controlled by use.”

98a
GRK IV, 180 F.Supp.3d at 1272 (citing StoreWALL,
644 F.3d at 1366 (Dyk, J., concurring)).63 The variety
of uses to which a motor vehicle “principally designed
for the transport of persons” may be put precludes a
finding that any one use is controlling. Instead,
classification turns, as discussed above, on the manner
of the vehicle’s design, which turns on its structural
and auxiliary design features. See generally Marubeni,
35 F.3d 530.
This is also not a case in which the court must
consider intended use to distinguish between tariff
provisions whose physical characteristics significantly
overlap. See GRK IV, 180 F.Supp.3d at 1266, 1277–78.
Indeed, the text of the headings at issue broadcast
their differences. Heading 8704 generally covers “motor
vehicles for the transport of goods”; heading 8703 more
specifically covers “motor vehicles principally designed
for the transport of persons.” Goods and persons are
not the same thing.64 Further, classification under
63

Defendant seizes on a particular sentence in Marubeni to
contend that ignoring use “contradicts both the plain language
of the heading and the clear and unambiguous guidance of
Marubeni.” Def.’s Reply at 10 (“Marubeni evaluated ‘[a]uxiliary
design aspects’ from the perspective of whether they ‘indicate
passenger use over cargo use . . . .’”) (quoting Marubeni, 35 F.3d
at 537). But an analysis of whether a particular feature suggests
a certain use is different from an analysis of what the featurecontaining subject article itself is used for. The Federal Circuit’s
passing reference to use is insufficient to persuade the court that
the subject article’s use drives the analysis, especially when the
Federal Circuit did not so find.
64

Because GRI 3(a) precludes a finding that an article prima
facie classifiable under headings 8703 and 8704 should be
classified under heading 8704, and having found that the subject
merchandise is classifiable under heading 8703, the court need
not determine whether the subject merchandise is also classifiable under heading 8704. See Marubeni, 35 F.3d at 536. However,

99a
heading 8703 requires the vehicle to be “designed
‘more’ for the transport of persons than goods,”
Marubeni, 35 F.3d at 534. A vehicle so designed
plainly does not belong under heading 8704. Id. at 536.
In sum, because heading 8703 is not controlled by
use, and an assessment of intended use is not
necessary to distinguish heading 8703 from 8704, the
court finds it unnecessary to consider principal or
intended use, or the Carborundum factors, to define
the tariff terms. Additionally, use of the Transit
Connect 6/7 does not “define [its] identity” for the
purpose of determining whether it fits within the scope
of heading 8703. See GRK II, 761 F.3d at 1359 (citing
CamelBak Prods., 649 F.3d at 1369 (hydration
component appended to the subject article’s cargo
component gave the article a “unique identity and use
that remove[d it] from the scope of the eo nomine
backpack provision”). Instead, the court must, as it
has, consider the structural and auxiliary design
features of the vehicles as imported. See Marubeni, 35
F.3d at 535. Pursuant to that analysis, the court finds
that the Transit Connect 6/7 is “principally designed
for the transport of persons.”65
CONCLUSION AND ORDER
For the foregoing reasons, the court holds that
Customs incorrectly classified the Transit Connect 6/7
pursuant to heading 8704, and the Transit Connect 6/7
such an analysis presumably involves an assessment of its goodscarrying, as opposed to passenger-carrying, features.
65

Because the court finds that Plaintiff’s Transit Connect 6/7s
are properly classified pursuant to heading 8703, the court need
not reach Plaintiff’s alternative arguments regarding prior
treatment and established and uniform practice. Pl.’s MSJ at 41–
45.

100a
is properly classified pursuant to heading 8703,
specifically, subheading 8703.23.00. The court will
grant Plaintiff’s motion for summary judgment and
deny Defendant’s cross-motion for summary judgment.
The court hereby DENIES Plaintiff’s motion to quash
or suspend an administrative summons (ECF No.
140). Judgment will enter accordingly.

101a
APPENDIX C
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2018-1018
————
FORD MOTOR COMPANY,
Plaintiff-Appellee,
v.
UNITED STATES,
Defendant Appellant.
————
Appeal from the United States Court of International
Trade in No. 1:13-cv-00291-MAB,
Judge Mark A. Barnett.
————
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
————
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellee Ford Motor Company filed a combined
petition for panel rehearing and rehearing en banc. A
response to the petition was invited by the court and

102a
filed by Appellant United States. The petition was
referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on October 23,
2019.
October 16, 2019
Date
FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

103a
APPENDIX D
Harmonized Tariff Schedule of the
United States (2015) (Rev.1)
Annotated for Statistical Reporting Purposes
CHAPTER 87
VEHICLES OTHER THAN RAILWAY OR
TRAMWAY ROLLING STOCK, AND PARTS AND
ACCESSORIES THEREOF
* * *
8703

Motor cars and other motor vehicles
principally designed for the transport of
persons (other than those of heading
8702), including station wagons and
racing cars:
* * *

8703.23.00

Of a cylinder capacity exceeding 1,500
cc but not exceeding 3,000 cc…… 2.5%
* * *

8704

Motor vehicles for the transport of
goods:
* * *
Other, with spark-ignition internal
combustion piston engine:

8704.31.00

G.V.W. not exceeding 5 metric
tons .................................................... 25%
* * *

104a
APPENDIX E
Harmonized Tariff Schedule of the
United States (2014) (Rev. 1)
Annotated for Statistical Reporting Purposes
————
GENERAL RULES OF INTERPRETATION
Classification of goods in the tariff schedule shall be
governed by the following principles:
1. The table of contents, alphabetical index, and titles
of sections, chapters and sub-chapters are provided
for ease of reference only; for legal purposes, classification shall be determined according to the terms
of the headings and any relative section or chapter
notes and, provided such headings or notes do not
otherwise require, according to the following provisions:
2. (a) Any reference in a heading to an article shall be
taken to include a reference to that article incomplete or unfinished, provided that, as entered,
the incomplete or unfinished article has the
essential character of the complete or finished
article. It shall also include a reference to that
article complete or finished (or falling to be classified as complete or finished by virtue of this
rule), entered unassembled or disassembled.
(b) Any reference in a heading to a material or
substance shall be taken to include a reference
to mixtures or combinations of that material or
substance with other materials or substances.
Any reference to goods of a given material or
substance shall be taken to include a reference
to goods consisting wholly or partly of such
material or substance. The classification of

105a
goods consisting of more than one material or
substance shall be according to the principles of
rule 3.
3. When, by application of rule 2(b) or for any other
reason, goods are, prima facie, classifiable under two
or more headings, classification shall be effected as
follows:
(a) The heading which provides the most specific
description shall be preferred to headings providing a more general description. However, when
two or more headings each refer to part only of
the materials or substances contained in mixed
or composite goods or to part only of the items
in a set put up for retail sale, those headings are
to be regarded as equally specific in relation to
those goods, even if one of them gives a more
complete or precise description of the goods.
(b) Mixtures, composite goods consisting of different materials or made up of different components, and goods put up in sets for retail sale,
which cannot be classified by reference to 3(a),
shall be classified as if they consisted of the
material or component which gives them their
essential character, insofar as this criterion is
applicable.
(c) When goods cannot be classified by reference to
3(a) or 3(b), they shall be classified under the
heading which occurs last in numerical order
among those which equally merit consideration.
4. Goods which cannot be classified in accordance
with the above rules shall be classified under the
heading appropriate to the goods to which they are
most akin.

106a
5. In addition to the foregoing provisions, the following rules shall apply in respect of the goods referred
to therein:
(a) Camera cases, musical instrument cases, gun
cases, drawing instrument cases, necklace cases
and similar containers, specially shaped or fitted to contain a specific article or set of articles,
suitable for long-term use and entered with the
articles for which they are intended, shall be
classified with such articles when of a kind normally sold therewith. This rule does not, however, apply to containers which give the whole
its essential character;
(b) Subject to the provisions of rule 5(a) above, packing materials and packing containers entered
with the goods therein shall be classified with
the goods if they are of a kind normally used for
packing such goods. However, this provision is
not binding when such packing materials or
packing containers are clearly suitable for
repetitive use.
6. For legal purposes, the classification of goods in the
subheadings of a heading shall be determined
according to the terms of those subheadings and
any related subheading notes and, mutatis mutandis, to the above rules, on the understanding that
only subheadings at the same level are comparable.
For the purposes of this rule, the relative section,
chapter and subchapter notes also apply, unless
the context otherwise requires.

107a
ADDITIONAL U.S. RULES OF INTERPRETATION
1. In the absence of special language or context which
otherwise requires—
(a) a tariff classification controlled by use (other
than actual use) is to be determined in accordance with the use in the United States at, or
immediately prior to, the date of importation, of
goods of that class or kind to which the imported
goods belong, and the controlling use is the
principal use;
(b) a tariff classification controlled by the actual
use to which the imported goods are put in the
United States is satisfied only if such use is
intended at the time of importation, the goods
are so used and proof thereof is furnished within 3 years after the date the goods are entered;
(c) a provision for parts of an article covers products solely or principally used as a part of such
articles but a provision for “parts” or “parts and
accessories” shall not prevail over a specific provision for such part or accessory; and
(d) the principles of section XI regarding mixtures
of two or more textile materials shall apply to
the classification of goods in any provision in
which a textile material is named.

